<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 15, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Lautenberg, Pryor, Collins, and 
Inouye.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. RAY LAHOOD, SECRETARY

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Good morning. This subcommittee will come 
to order.
    Today, we will hear testimony from Transportation Secretary 
Ray LaHood on the President's budget request for fiscal year 
2013.
    Mr. Secretary, welcome back to our subcommittee. It is 
always good to have you here. And just personally, 
congratulations on your son's safe return. We are all glad he 
is home; I am sure you are as well.
    As we begin our work on next year's budget, there are 
encouraging signs that our economy is moving in the right 
direction. Although we are obviously not moving quickly enough 
for families that continue to struggle, and we certainly have a 
long way to go, the private sector has been adding jobs for 
almost 2 years, businesses are growing, confidence is up, and 
we seem to have stepped back from the precipice. That is 
encouraging, but to keep growing these improvements over time, 
we need a transportation system that supports job creation, 
fosters economic growth, is sustainable, and most importantly, 
is safe to use.
    Unfortunately, today we have a transportation system that 
is riddled with bottlenecks, slowing down the movement of 
freight, and leading to higher costs for our businesses. We 
have a system that makes airline passengers suffer through 
flight delays and keeps commuters stuck in traffic jams instead 
of allowing them to get to work or get home for their families.
    Independent assessments show us that the infrastructure of 
our country is falling behind and holding us back. All of these 
reports reach the same conclusion: That the need to invest in 
our transportation infrastructure is huge and needs to be done.
    Many of us have seen the report card for America's 
infrastructure put together by the American Society of Civil 
Engineers. Their overall grade for our Nation's infrastructure 
is a ``D,'' and their grade for roads is even more depressing, 
a ``D-minus.'' Our Nation's rail network earned a paltry ``C-
minus,'' and transit only rates a ``D.''
    Last year, the World Economic Forum ranked U.S. 
infrastructure 23rd in the world; 10 years ago, we were 6th. 
And without aggressive investment, I am very concerned about 
where we will be 10 years from now.
    The U.S. Chamber of Commerce found that, given expected 
growth in population and trade, we need to invest an additional 
$50 billion a year in our highway and public transportation 
system just to maintain current performance, and we need to 
double that number each year to improve performance.
    Taken together, these assessments are alarming, and sadly 
the condition of our Nation's infrastructure comes at 
significant costs. On average, Americans now spend an extra 
$400 per year on car maintenance as the result of driving on 
poor roads, money every family, I know, could put to better 
use. We spend an extra 4 billion hours a year sitting in our 
cars due to traffic congestion, burning through an almost extra 
3 billion gallons of fuel in the process.
    We have the world's worst air traffic congestion with 
delays that average twice as long as those in Europe. And 
freight delays have gotten so bad that bottlenecks cost the 
economy an estimated $200 billion a year. And let us be clear, 
holding back on investing in transportation infrastructure does 
not actually save us money. It simply turns a budget deficit 
into an infrastructure deficit. In fact, kicking the can down 
the road will end up costing our Nation even more over the long 
term, and forces the next generation to pay to clean up our 
mess.
    So we can invest now and lay down a strong foundation for 
long-term growth, or we can let the system continue to crumble 
and pay even more later. I think the choice is clear.
    To address this problem, the President's budget request for 
next year proposes to reauthorize the service transportation 
programs at a funding level of $476 billion over the next 6 
years. This is a substantial increase over current funds.
    The reauthorization proposal is very similar to the one the 
President included in his budget request last year, and like 
last year, I applaud the administration's effort to promote 
investment in our Nation's infrastructure. I am glad we are 
seeing progress on a reauthorization bill, but I am still very 
concerned about how we are going to move forward on financing 
transportation programs this coming year. We have significant 
challenges ahead of us.
    The Appropriations Committee is now working under tight 
caps on discretionary spending set by the Budget Control Act, 
and unfortunately, the budget request does not offer a 
realistic picture of how to fund transportation under those 
caps. The President's budget, again, seeks to reclassify as 
mandatory spending at least $4 billion in programs that have 
long been funded by this subcommittee. That request leaves a 
big hole this subcommittee will have to fill. In addition, 
there is a long way to go before a reauthorization bill is 
signed into law, and it is not yet clear what kind of package 
will be considered in the House.
    This leaves us with a lot of questions for how we are going 
to sustain the Highway Trust Fund and fund transportation 
programs next year. Recent projections from both CBO (the 
Congressional Budget Office) and the administration show the 
Highway Trust Fund may not stay solvent throughout fiscal year 
2013. And even though the Senate reauthorization bill would 
address this problem, no legislation is effective until it is 
enacted into law. In addition, until the reauthorization bill 
is completed, or until we see a full-year extension of the 
transportation program, we do not know what levels of contract 
authority there will be for next year.
    For the past 3 years, I have been put in the position of 
writing appropriation acts without knowing the full-year levels 
of contract authority. I am prepared to do that again, but this 
is not how a program should be funded. We all know that State 
departments of transportation need a stable source of funding 
in order to build transportation infrastructure. They need 
predictability. They deserve better than a few months of 
funding at a time, and more than that, our commuters who are 
stuck in traffic and businesses trying to get their goods to 
market deserve a better transportation system.
    Despite these concerns, I do want to take a minute to 
acknowledge some areas where the Department of Transportation 
(DOT) has made progress.
    Not long ago, the En Route Automation Modernization (ERAM) 
program at the Federal Aviation Administration (FAA) fell years 
behind schedule, putting the agency's Next Generation Air 
Transportation System (NextGen) program at risk. For too long 
the agency was unwilling to work with its own air traffic 
controllers on getting ERAM back on track. The Department has 
come a long way. The program is under new management, 
stakeholders have a seat at the table, and it is achieving new 
milestones. In addition, the recent reorganization at the FAA 
has placed a stronger emphasis on the management of its 
technology programs. That was the right move to make.
    In the area of highway safety, the Department has led a 
very public campaign to address distracted driving. This past 
week, Mr. Secretary, you announced a partnership with Consumer 
Reports aimed at getting young people to put down their phones 
while they are behind the wheel, which is an effort to save 
lives.
    The Department has also raised the profile of rail 
transportation. It is a reliable, safe, and environmentally 
sound means of passenger and freight transportation. Building 
more roads and wider roads is not enough. We need to continue 
to make targeted rail investments to improve mobility in and 
between America's congested cities.
    Mr. Secretary, these are some of the areas where your 
leadership has truly made a difference, and we thank you.

                           PREPARED STATEMENT

    During this hearing, I look forward to discussing these 
issues and addressing some questions we have, but before 
turning this over to Senator Collins, I want to thank you for 
your efforts. As Secretary of Transportation, Mr. Secretary, 
you really have proven strong leadership for this agency, and 
you have always worked on a bipartisan basis, which is 
something we do not see often enough today. And I truly want to 
thank you for that.
    With that, let me turn it over to my colleague, Senator 
Collins.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    The subcommittee will come to order. Today we will hear testimony 
from Transportation Secretary Ray LaHood on the President's budget 
request for fiscal year 2013.
    Mr. Secretary, welcome back to the subcommittee. Thank you for 
being here.
    And congratulations on your son's safe return. The past 2 months 
must have been a difficult time to say the least. I can only imagine 
what a relief it must be for you and your family.
    As we begin our work on next year's budget, there are encouraging 
signs that our economy is moving in the right direction.
    Although we aren't moving quickly enough for families that continue 
to struggle--and we certainly have a long way to go. The private sector 
has been adding jobs for almost 2 years. Businesses are growing, 
confidence is up, and we seem to have stepped back from the precipice.
    This is encouraging. But to keep growing these improvements over 
time, we need a transportation system that supports job creation, 
fosters economic growth, is sustainable, and most importantly, is safe 
to use.
    Unfortunately, today we have a transportation system that is 
riddled with bottlenecks, slowing down the movement of freight and 
leading to higher costs for businesses.
    We have a system that makes airline passengers suffer through 
flight delays, and keeps commuters stuck in traffic jams--instead of 
allowing them to get to work or get home to their families.
    Independent assessments show us that the infrastructure of our 
country is falling behind and holding us back.
    All of these reports reach the same conclusion--that the need to 
invest in our transportation infrastructure is huge.
    Many of us have seen the Report Card for America's Infrastructure 
put together by the American Society of Civil Engineers.
    Their overall grade for our Nation's infrastructure is a ``D,'' and 
their grade for roads is even more depressing--a ``D-'' (minus). Our 
Nation's rail network earned a paltry ``C-'' (minus), and transit only 
rates a ``D.''
    Last year, the World Economic Forum ranked U.S. infrastructure 23rd 
in the world. Ten years ago we were sixth. And without aggressive 
investment, I am very concerned about where we will be 10 years from 
now.
    The U.S. Chamber of Commerce found that, given expected growth in 
population and trade, we need to invest an additional $50 billion a 
year in our highway and public transportation system just to maintain 
current performance. And we would need to double that number each year 
to improve performance.
    Taken together, these assessments are alarming. And sadly, the 
condition of our Nation's infrastructure comes at a significant cost. 
On average, Americans now spend an extra $400 per year on car 
maintenance as a result of driving on poor roads--money every family 
could be putting to better use. We spend an extra 4 billion hours a 
year sitting in our cars due to traffic congestion, burning through 
almost an extra 3 billion gallons of fuel in the process. We have the 
world's worst air traffic congestion, with delays that average twice as 
long as those in Europe. And freight delays have gotten so bad that 
bottlenecks cost the economy an estimated $200 billion a year.
    And let's be clear--holding back on investing in transportation 
infrastructure doesn't actually save us money. It simply turns a budget 
deficit into an infrastructure deficit.
    In fact, kicking the can down the road will end up costing our 
Nation even more over the long term and forces the next generation to 
pay to clean up our mess. So we can invest now and lay down a strong 
foundation for long-term growth, or we can let this system continue to 
crumble and pay even more later. I think the choice is clear.
   the department of transportation's budget proposal and safetea-lu
    To address this problem, the President's budget request for next 
year proposes to reauthorize the surface transportation programs at a 
funding level of $476 billion over the next 6 years. This is a 
substantial increase over current funding levels.
    The reauthorization proposal is very similar to the one the 
President included in his budget request last year. And like last year, 
I applaud the administration's effort to promote investment in our 
Nation's infrastructure.
    I am glad that we are seeing progress on a reauthorization bill, 
but I am still very concerned about how we are going to move forward on 
financing transportation programs this coming year. We have significant 
challenges ahead of us.
    The Appropriations Committee is now working under tight caps on 
discretionary spending set by the Budget Control Act. And 
unfortunately, the budget request does not offer a realistic picture of 
how to fund transportation under those caps.
    The President's budget again seeks to reclassify as mandatory 
spending at least $4 billion in programs that have long been funded by 
this subcommittee. This request leaves a big hole that this 
subcommittee will have to fill.
    In addition, there is a long way to go before a reauthorization 
bill is signed into law. It is not yet clear what kind of package will 
be considered on the House floor.
    This leaves us with a lot of questions for how we are going to 
sustain the Highway Trust Fund and fund transportation programs next 
year.
    Recent projections from both the Congressional Budget Office (CBO) 
and the administration show that the Highway Trust Fund may not stay 
solvent throughout fiscal year 2013. And even though the Senate 
reauthorization bill would address this problem, no legislation is 
effective until it is enacted into law.
    In addition, until the reauthorization bill is completed--or until 
we see a full-year extension of the transportation programs--we do not 
know what levels of contract authority there will be for next year.
    For the past 3 years, I've been put in the position of writing 
appropriations acts without knowing the full-year levels of contract 
authority.
    I am prepared to do that work again, but this is not how our 
programs should be funded.
    We all know that State departments of transportation need a stable 
source of funding in order to build transportation infrastructure. They 
need predictability. They deserve better than a few months of funding 
at a time. And more than that, commuters stuck in traffic and 
businesses trying to get their goods to market deserve a better 
transportation system.
                            accomplishments
    Despite these concerns, I would like to take a minute to 
acknowledge some areas where the Department of Transportation has made 
progress.
    Not long ago, the En Route Automation Modernization (ERAM) program 
at the Federal Aviation Administration (FAA) fell years behind 
schedule, putting the agency's Next Generation Air Transportation 
System (NextGen) program at risk.
    For too long, the agency was unwilling to work with its own air 
traffic controllers on getting ERAM back on track. But the Department 
has come a long way. The program is under new management, stakeholders 
have a seat at the table, and it is achieving new milestones.
    In addition, the recent re-organization at the FAA has placed a 
stronger emphasis on the management of its technology programs. This 
was the right move to make.
    In the area of highway safety, the Department has led a very public 
campaign to address distracted driving. This past week, you announced a 
partnership with Consumer Reports aimed at getting young people to put 
down their phones while they are behind the wheel, an effort that will 
save lives.
    The Department has also raised the profile of rail transportation. 
It is a reliable, safe, and environmentally sound means of passenger 
and freight transportation.
    Building more roads and wider roads is not enough. We need to 
continue to make targeted rail investments to improve mobility in and 
between American's congested cities.
    Mr. Secretary, these are some of the areas where your leadership 
has been making a difference.
                                closing
    During this hearing, I look forward to discussing these issues and 
addressing some other questions that I have.
    But before turning this over to Senator Collins, I want to thank 
you for your efforts as Secretary of Transportation.
    You provided strong leadership for the Department, and you have 
always worked on a bipartisan basis. Which is something we don't see 
often enough today.
    I will now turn it over to my partner on the subcommittee, Senator 
Collins.

                 STATEMENT OF SENATOR SUSAN M. COLLINS

    Senator Collins. Thank you, Chairman Murray. Your final 
comments echo my opening comments to the Secretary.
    I too want to welcome Secretary LaHood and thank him for 
his very strong leadership. We used exactly the same terms at 
the Department and for working so closely with both sides of 
the aisle as we worked together to promote fiscally responsible 
investments in our Nation's transportation infrastructure. Like 
the chairman, I too am so relieved that your son, Sam, his 
wife, and other Americans are safely out of Egypt. I just 
cannot imagine what a difficult time that must have been for 
you, and we are so happy that he is safely home.
    Transportation investments create jobs and establish the 
foundation for future economic growth, but it is equally 
important to our economic future that we rein in Federal 
spending and keep our national debt under control. The 
administration is proposing a $74.5 billion budget for the DOT. 
That is approximately a 2-percent increase over fiscal year 
2012.
    This request helps insure that transportation investments 
keep pace with the latest advancements in technology and that 
Federal programs continue to promote innovation, and help meet 
the needs of our municipalities and States.
    One of the most innovative DOT programs is the National 
Infrastructure Investments program, a nationally competitive 
program known as Transportation Investment Generating Economic 
Recovery (TIGER), and a program that Senator Murray and I have 
both strongly supported on a bipartisan basis. I am very 
pleased to see that the President's budget proposes $500 
million for this vital program. By design, TIGER has the 
flexibility to fund a wide range of transportation projects as 
long as they demonstrate national or regional significance to 
economic growth. Most TIGER projects are multimodal, 
multijurisdictional, or otherwise challenging to fund through 
existing programs. So this funding supports critical projects 
nationwide that otherwise would not be built and yet are 
absolutely essential to the communities that they are 
supporting.
    An interesting component of TIGER is the eligibility to 
receive credit assistance through the Transportation 
Infrastructure Finance and Innovation Act (TIFIA) loan program. 
I am pleased to see that the administration is proposing to 
dramatically increase funding for the TIFIA program from $122 
million to $500 million, and here is why. On average a TIFIA 
loan allows every dollar provided in Federal funding to 
leverage approximately $30 in additional transportation 
infrastructure investment. That is a great ratio, a great 
return, and it is the kind of innovation in infrastructure 
finance that we need to produce a greater return to taxpayers, 
particularly at this time of budget constraint.
    In addition to innovative programs, this budget makes 
investments in several important technology improvements. The 
Federal Aviation Administration (FAA) is in the middle of 
undertaking the Next Generation Air Transportation System 
(NextGen), the largest transformation of the air traffic 
control system ever, and the budget provides more than $1 
billion to advance this technology.
    Through the use of satellite surveillance, new methods of 
routing pilots, planes, and landing procedures, NextGen will 
change how Americans fly. It will ensure that the traveling 
public is flying in an even safer and more efficient airspace. 
But obviously, any program of this type is not without its 
challenges.
    For investments in our roads and bridges, the budget 
includes $42.6 billion for the Federal Highway Administration; 
$2.7 billion more than last year. I appreciate the inclusion of 
reform proposals designed to simplify the program structure and 
improve upon project delivery to bring the benefits of these 
investments to the public sooner. These investments and reforms 
will help modernize our highway system, and as Senator Murray 
has pointed out, that is long overdue and much needed.
    I also look forward to working closely with the 
administration to urge States to pass stronger distracted 
driving laws to avoid tragic accidents, and to ensure that 
traffic fatality numbers continue dropping from current 
historic lows.
    I share the administration's belief that investment in 
transportation is critical to our economy. We must balance this 
commitment, however, with other pressing needs. I was, and am, 
disappointed to see that the budget continues to request a 
substantial investment for high-speed rail at a time when too 
many of our roadways and bridges are crumbling, and require 
billions of dollars in investments.
    The continuation of a multibillion dollar commitment to 
high-speed rail is particularly troubling in light of our 
ongoing battle to control deficits, and the endless spiraling 
costs of high-speed rail projects. The map is very clear that 
the challenges that we are facing, Highway Trust Fund revenues 
and balances over the next 6 years, support approximately $260 
billion in spending, and the budget request implies a 6-year 
surface transportation reauthorization that spends $476 billion 
out of a trust fund that is projected to be insolvent some time 
in the next fiscal year.
    [The referenced map was not available at press time.]
    Congress and the administration must work together. I know 
the Secretary said that numerous times, to come up with a 
better, more solvent plan for investing in our transportation 
system.

                           PREPARED STATEMENT

    I look forward to working with the Secretary and his able 
staff, and with you, Chairman Murray, and the rest of the 
subcommittee members as we consider this budget request.
    Thank you.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Thank you, Chairman Murray. Welcome, Secretary LaHood. I appreciate 
your strong leadership at the Department of Transportation (DOT) and 
look forward to continuing to work together to promote fiscally 
responsible investments in our Nation's transportation infrastructure. 
And I am so relieved that your son, Sam, and other Americans are now 
safely out of Egypt.
    Transportation investments create jobs and establish the foundation 
for future growth. But it is equally important to our economic future 
that we rein in Federal spending and keep our national debt under 
control.
    The administration is proposing a $74.5 billion budget for DOT, a 
2-percent increase over fiscal year 2012. This request helps ensure 
that transportation investments keep pace with the latest advancements 
in technology and that Federal programs continue to promote innovation.
    One of the most innovative DOT programs is the National 
Infrastructure Investments program, a nationally competitive program 
that we all know as Transportation Investment Generating Economic 
Recovery (TIGER). I am pleased to see the $500 million request for this 
vital program. By design, TIGER has the flexibility to fund a wide 
range of transportation projects so long as they demonstrate national 
or regional significance to economic growth. Most TIGER projects are 
multimodal, multijurisdictional, or otherwise challenging to fund 
through existing programs so this funding supports critical projects 
nationwide that would not otherwise be built.
    An interesting component of TIGER is the eligibility to receive 
credit assistance through the Transportation Infrastructure Finance and 
Innovation Act (TIFIA) loan program. I am pleased to see that the 
administration is proposing to dramatically increase funding for TIFIA 
from $122 million to $500 million. On average, a TIFIA loan allows 
every $1 provided in Federal appropriations to leverage approximately 
$30 in additional transportation infrastructure investment. That's the 
kind of innovation in infrastructure finance that we need to produce a 
greater return for taxpayers.
    In addition to innovative programs, this budget makes investments 
in several important technology improvements. The Federal Aviation 
Administration (FAA) is in the middle of undertaking the Next 
Generation Air Transportation System (NextGen), the largest 
transformation of air traffic control ever, and the budget provides 
over $1 billion to advance the NextGen air traffic control technology. 
Through the use of satellite surveillance, new methods of routing 
pilots, planes, and landing procedures, NextGen will change how 
Americans fly. It will ensure the traveling public is flying in an even 
safer and more efficient airspace.
    For investments in our roadways and bridges, the budget includes 
$42.6 billion for the Federal Highway Administration, $2.7 billion more 
than fiscal year 2012. I appreciate the inclusion of reform proposals 
designed to simplify the program structure, and improve upon project 
delivery to bring the benefits of highway and bridge investments to the 
public sooner. These investments and reforms will help modernize our 
highway system. I also look forward to working with the administration 
to urge States to pass distracted drivers' law to avoid tragic 
accidents and to ensure that traffic fatality numbers continue dropping 
from current historic lows.
    I share the administration's belief that investment in 
transportation is critical to our economy. We must balance this 
commitment, however, with other pressing needs. I was disappointed to 
see the budget continue to request a substantial investment for high-
speed rail, at a time when too many of our roadways and bridges are 
crumbling and require billions of dollars in investment.
    The continuation of a multibillion dollar high-speed rail proposal 
is particularly troubling in light of our ongoing battle to control 
deficits. This budget request implies a 6-year surface transportation 
reauthorization that spends $476 billion out of a trust fund that is 
projected to be insolvent sometime in the next fiscal year. While I 
share the administration's commitment to investing in our future 
transportation needs, responsible budgeting is just as important as 
responsible investing. The math here is clear: Highway Trust Fund 
revenues and balances over the next 6 years support approximately $260 
billion in spending. Congress and the administration must work together 
to come up with a better plan for investing in our transportation 
system while reducing an unsustainable deficit.
    I look forward to working with you, Chairman Murray, as we consider 
the Department's fiscal year 2013 budget request.

    Senator Murray. Thank you very much, Senator Collins.
    Senator Pryor, do you have an opening remark?

                           PREPARED STATEMENT

    Senator Pryor. Thank you, Madam Chairman.
    I do, but I will just submit it for the record. Thank you.
    [The statement follows:]
                Prepared Statement of Senator Mark Pryor
    Thank you, Chairman Murray and Ranking Member Collins for holding 
this hearing. I look forward to visiting with Secretary LaHood and 
learning more about the administration's budget proposal for fiscal 
year 2013.
    Given the fiscal predicament facing our country, it's obvious that 
Congress will have to make some difficult decisions and identify areas 
to save taxpayer dollars and reduce spending at the Department of 
Transportation (DOT) and every other agency. No agency should consider 
itself exempt from needing to find savings. However, we must not back 
down from making the needed investments in areas that will foster 
short-term and long-term economic growth as well as areas that protect 
consumers. If we fail to make such investments, the United States will 
struggle to compete in the global market in the coming years.
    As a strong proponent in developing transportation infrastructure, 
I'm hopeful Congress and the administration can agree on a bold 
commitment to meeting the transportation demands of the coming years by 
addressing our aging infrastructure while also carrying a vision for 
the future. I also hope we can come together and find reasonable and 
creative ways to finance these investments. We cannot afford to 
continue to pile up deficits while pretending revenues are matching our 
needs and investments.
    Another high priority for me is continuing to improve upon highway, 
automobile, and motor carrier safety. I hope to work closely with the 
administration and my colleagues in this area. We've made great strides 
in recent years, and we must continue to improve.
    As this subcommittee reviews the fiscal year 2013 budget request 
for the DOT, I look forward to working with the chair and ranking 
member to ensure that taxpayer dollars are spent responsibly.
    Again, I thank Senators Murray and Collins for conducting this 
hearing. I look forward to Secretary LaHood's testimony and look 
forward to discussing the fiscal year 2013 budget request.

    Senator Murray. Okay. Thank you very much.
    We will then turn it over to Secretary LaHood for your 
testimony this morning.
    Again, thanks for joining us.

                  SUMMARY STATEMENT OF HON. RAY LAHOOD

    Mr. LaHood. Thank you, Madam Chair, and Ranking Member 
Collins, and Senator Pryor.
    Really good to be with all of you today. This is really a 
hallelujah day for transportation for what you all did 
yesterday.
    I think passing a bipartisan bill reflects the very best 
values of the Senate. Transportation has always been 
bipartisan, and you all proved it again yesterday. I hope the 
House will take your lead. I hope you have shined a bright 
light on the House that the values that people really 
understand in America about transportation were carried out 
yesterday.
    And big, big congratulations to Senator Boxer and Senator 
Inhofe. They worked very hard together, they really did, but 
without the votes of all of you, it would not have happened. I 
just cannot say enough about the way the Senate worked in a 
very bipartisan way and in a way that has always been about the 
way that transportation has been passed. The bill was a 
significant step forward, and as I said, we hope the House will 
move swiftly in a similar bipartisan fashion.
    As you know, transportation has been in the news a lot, and 
that is a good thing. There is good news on the horizon and 
reason for optimism. For one thing, after 23 short-term 
extensions, Congress finally passed, and President Obama 
signed, the FAA bill. President Obama has detailed his vision 
for a long-term transportation infrastructure bill, part of his 
Blueprint for an America Built to Last. All of this would be 
fully paid for.
    President Obama is proposing to cap the funding for 
overseas contingency operations over the next 10 years, thereby 
saving hundreds of billions of dollars. We would use half of 
these savings to pay down the debt, and the other half on a 6-
year transportation bill, which lets us do some nation-building 
right here at home.
    The facts are that our budget proposal has three broad 
goals: Creating jobs by investing in infrastructure, spurring 
innovation across our transportation system, and maintaining a 
laser focus on safety, which is our number one job. Let me take 
these goals one at a time.

                     REBUILDING OUR INFRASTRUCTURE

    An America Built to Last needs a strong transportation 
infrastructure. The President's budget will improve America's 
highways, railways, and transit networks, and will continue to 
ensure that these systems are safe.
    The President's fiscal year 2013 budget request, includes 
$42.6 billion to fund roads and bridges, $305 billion is 
proposed over 6 years for this program. This is a 34-percent 
increase over the previous authorization for roads and bridges.
    Investing in our transit systems is another critical need. 
The President's budget includes $10.8 billion in fiscal year 
2013; a total of $108 billion is proposed over 6 years for 
transit, a 105-percent increase. It will prioritize projects 
that rebuild and rehabilitate existing transit systems, and 
include an important new $45 million transit safety program. 
That program was actually included in the bill that passed 
yesterday, and we are grateful that transit safety is now being 
addressed.
    The President's budget provides $2.5 billion in 2013 as a 
part of $45 billion 6-year investment to continue support of 
intercity passenger rail, including the construction of a 
national highway rail network.
    I consider it unfortunate that the fiscal year 2012 
appropriation bill did not include funding for high-speed rail. 
You know that I am very passionate about that. You know that I 
made a plea to all of you for that funding. This is a very high 
priority. It is a very big vision that the President has for 
the next generation of transportation for the next generation 
in America.
    For the more than $10 billion in grant funding that 
Congress has provided, we received applications from 39 States, 
the District of Columbia, and Amtrak. These applications, which 
were well in excess of available funding, were for funding and 
corridors in every region of the country. Our current high-
speed rail funds are being used in five key corridors around 
the Nation. These corridors will create new choices for 
travelers, reduce national dependence on oil, foster livability 
in urban and rural communities, and promote economic expansion 
across the Nation.

                               INNOVATION

    As we rebuild, we can no longer afford to continue 
operating our transportation system the same way we did 50 
years ago with outdated processes and financial tools that were 
made for yesterday's economy. The President's 2013 budget will 
invest in research and technologies that our children and 
grandchildren will use to bolster America's economic 
competitiveness.
    The Federal Aviation Administration is in the midst of the 
largest transformation of the air traffic control system ever 
undertaken. The 2013 President's budget request includes $15.2 
billion to support FAA programs. More than $1 billion of these 
funds will be used to advance the modernization of our air 
traffic control through NextGen, the next generation of air 
traffic control technology.
    Our proposal will also elevate the vital role research 
plays in transportation decisionmaking by moving the Research 
and Innovation Technology Administration (RITA) into the 
Secretary's office, into a position as an Assistant Secretary 
for Research and Technology. This change will provide a 
prominent, centralized focus on research and technology, which 
will improve collaboration and coordination among the 
Department's operating administrations through research 
programs.

                                 SAFETY

    Keeping our transportation system safe will always be our 
top priority. Consistent with this commitment, President Obama 
has proposed a record level of investment in safety. The 
President's proposal will provide $981 million in fiscal year 
2013, and $7.5 billion over the next 6 years to the National 
Highway Traffic Safety Administration (NHTSA) to promote 
seatbelt use, get drunk drivers off the road, and reduce 
distracted driving. This will help ensure that traffic fatality 
numbers continue dropping from current historic lows.
    We will also double the investment in highway safety 
infrastructure funding by providing $2.5 billion in fiscal year 
2013 and $17 billion over 6 years to Federal Highway 
Administration safety construction programs. The budget will 
also dedicate $580 million in fiscal year 2013 and $4.8 billion 
over 6 years to the Federal Motor Carrier Safety Administration 
(FMCSA). These dollars will ensure that commercial trucks and 
bus companies maintain high operational standards, and that our 
dedicated safety professionals can get high-risk trucks and bus 
companies, and their drivers, off our roadways.
    Our safety focus must also include the transportation of 
hazardous materials in our network of pipelines. The 
President's budget requests $276 million for Pipeline and 
Hazardous Material Safety Administration. These resources will 
ensure that families, communities, and the environment are 
unharmed by the transportation of the very chemicals and fuels 
on which our economy relies.

                           PREPARED STATEMENT

    And so with that, again, thank you for all your leadership 
from this subcommittee of the Committee on Appropriations, 
particularly when it comes to transportation. We have had a 
great partnership and we look forward to continuing that.
    [The statement follows:]
                 Prepared Statement of Hon. Ray LaHood
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the administration's fiscal year 2013 budget request for the 
U.S. Department of Transportation. The President is requesting $74 
billion for Transportation in fiscal year 2013.
    The President has called on us to rebuild America--to put people 
back to work repairing our roads, bridges, transit systems, and 
airports. To achieve this, he has laid out a blueprint for ``an America 
that's built to last''--a plan that will equip American workers to 
seize the opportunities of tomorrow and make certain that businesses 
and families have the safest, fastest, and most efficient ways to 
connect with these opportunities.
    President Obama has proposed a 6-year transportation jobs plan that 
puts people back to work rebuilding our airports, roadways, railways, 
and transit systems. The fiscal year 2013 President's budget reflects 
the first year of this bold 6-year $476 billion reauthorization 
proposal that will transform the way we manage surface transportation 
for the future.
    This proposal will be fully paid for. We will pay for the 
investments proposed under the Surface Transportation Reauthorization 
Proposal with the savings achieved from ramping down overseas military 
operations to do some Nation-building right here at home.
  investing in america's future by rebuilding our infrastructure and 
                             creating jobs
    Investment in transportation is critical to the success of our 
Nation's economy. The fiscal year 2013 President's budget for the 
Department of Transportation will enable us to build America's 
infrastructure for the future--while putting people back to work today. 
The President's $476 billion 6-year surface transportation 
reauthorization proposal will improve the Nation's highways, transit, 
and rail infrastructure and will ensure that these systems are safe.
    The President's fiscal year 2013 budget requests $2.5 billion, the 
first year of $47 billion over 6 years, to continue construction of a 
national high-speed rail network. The Federal Railroad Administration 
is working with States across the country to plan and develop high-
speed and intercity passenger rail corridors. These projects include 
upgrades to existing services, as well as entirely new rail lines 
exclusively devoted to 125 to 220 miles per hour trains. These 
corridors will promote economic expansion, create new choices for 
travelers, reduce national dependence on oil, and foster livable urban 
and rural communities.
    We are already putting America on track toward providing rail 
access to new communities and improving the reliability, speed, and 
frequency of existing lines. To date, Congress has provided more than 
$10 billion in grant funding for high-speed rail through the American 
Recovery and Reinvestment Act (ARRA) and annual Appropriations for 
fiscal year 2009 and 2010. Interest in this program is strong: 39 
States, the District of Columbia, and Amtrak have submitted 
applications--well in excess of the available funding--for projects and 
corridors in every region of the country.
    As shown in the attached map, our current high-speed rail funds are 
being used in five key corridors. We are focusing on projects offering 
the greatest public benefits, as well as those projects ready for 
implementation. The funding that has been provided to date will be used 
to improve upon existing services, spur new passenger rail 
capabilities, and initiate long-term planning activities. Ninety-five 
percent of the funding is committed to corridors that will operate at 
90 miles per hour or faster--and nearly 50 percent will operate at 
speeds greater than 125 miles per hour. These projects will ultimately 
lay thousands of miles of track and ties, build new stations and make 
existing facilities more functional, comfortable, and accessible for 
all passengers, install advanced signaling and communications systems, 
and procure hundreds of modern and more efficient and comfortable 
locomotives and passenger cars.
    [The referenced map follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The President's fiscal year 2013 budget requests $42.6 billion, the 
first year of $305 billion over 6 years, in funding for road and bridge 
improvements and construction--a 34-percent increase over the previous 
authorization. It will also simplify the highway program structure, 
accelerate project delivery, and realize the benefits of highway and 
bridge investments to the public sooner. These investments and reforms 
will modernize our highway system while creating much-needed jobs. The 
proposal consolidates more than 55 programs into five new programs that 
invest in roads most critical to the national interest: The National 
Highway Program; Highway Safety; Livable Communities; Federal 
Allocation; and Research, Technology, and Education. It also 
establishes a performance-based highway program in the critical areas 
of safety and state of good repair, and provides resources and 
authorities to spur innovations that will shorten project delivery and 
accelerate the deployment of new technologies.
    The President's fiscal year 2013 budget requests $10.8 billion, the 
first year of $108 billion over 6 years--a 105-percent increase--in 
funding for transit. It will prioritize projects that rebuild and 
rehabilitate existing transit systems, include an important new transit 
safety program, and allow larger transit authorities (in urbanized 
areas of 200,000 or more in population) to temporarily use formula 
funds to cover operating costs in limited circumstances.
    The administration's Surface Transportation Authorization proposal 
also acknowledges the important role that innovation and modern 
business tools play in putting our transportation dollars to work 
wisely. We can no longer afford to continue operating our systems the 
same way we did 50 years ago, with outdated processes and financial 
tools that were made for yesterday's economy.
    Recognizing that competition often drives innovation, the fiscal 
year 2013 budget requests $700 million, the first year of nearly $20 
billion over 6 years, for a ``race-to-the-top''-style incentive 
program, called the Transportation Leadership Awards, to encourage 
fundamental reforms in the planning, building, and management of the 
transportation system. This program would reward States and regions 
that implement proven strategies that further the Department's 
strategic goals, strengthen collaboration among different levels of 
government, focus on performance and outcomes, and encourage the 
development of a multimodal transportation system that connects people 
to opportunities and goods to markets. Examples of best practices that 
applicants might implement to compete in this program include passage 
of a primary seatbelt law, use of lifecycle cost analysis, aggressive 
deployment of operating practices that reduce need for more costly 
congestion solutions and implementation of a performance-based funding 
distribution system.
    We will also be leveraging our Federal investment farther than we 
ever have before through the use of Federal infrastructure loans, which 
enable State and local governments to significantly leverage Federal 
dollars when financing transportation infrastructure. The fiscal year 
2013 budget requests $500 million, the first year of $3 billion over 6 
years, for the Transportation Infrastructure Finance and Innovation Act 
(TIFIA) program. The TIFIA program leverages each $1 of Federal funds 
into $10 of credit assistance, which supports $30 in transportation 
infrastructure investment. Therefore, our $3 billion TIFIA investment 
is expected to produce up to $90 billion in transportation 
infrastructure projects.
    In addition, the President's budget makes the investments that we 
need to strengthen America's small towns and rural communities. 
Increased highway funding will expand access to jobs, education, and 
healthcare. Innovative policy solutions will ensure that people can 
more easily connect with regional and local transit options--and from 
one mode of transportation to another.
    At the same time, our proposal will bolster State and metropolitan 
planning; award funds to high-performing communities; and empower the 
most capable communities and planning organizations to determine which 
projects deserve funding.
  modernizing our nation's transportation system through research and 
                               technology
    The fiscal year 2013 President's budget request will support the 
success of our economy by ensuring that our transportation investments 
keep pace with the latest innovations and advancements in technologies.
    For example, the Federal Aviation Administration (FAA) is in the 
middle of undertaking the largest transformation of air traffic control 
ever. The fiscal year 2013 President's budget requests $15.2 billion to 
support the FAA current programs in the areas of air traffic controller 
and safety staffing, research and development, and capital investment--
and over $1 billion of these funds will be used to advance the 
modernization of our air traffic system through ``NextGen''--the next 
generation of air traffic control technology. Using satellite 
surveillance, new methods of routing pilots, planes, and landing 
procedures, NextGen will change how Americans fly.
    In addition, we will be focusing our efforts on unmanned aircraft 
systems (UAS), which will play an increasing role in both Federal and 
civil missions, including homeland security, national defense, law 
enforcement, weather monitoring and surveying. Currently, technical and 
procedural barriers still exist in the interoperation of UAS with 
manned aircraft in the National Airspace System (NAS). In fiscal year 
2013, the Joint Planning and Development Office (JPDO) will lead 
efforts with the NextGen partners to formulate and develop a national 
plan that will achieve the integration of UAS into the NAS, and 
accelerate strategic decisionmaking on UAS implementation issues.
    The fiscal year 2013 budget also proposes to elevate the vital role 
research plays in transportation decisionmaking by moving the Research 
and Innovative Technology Administration (RITA) into a new Office of 
the Assistant Secretary for Research and Technology. This proposal will 
strengthen research functions across the Department by providing a 
prominent centralized focus on research and technology, which will 
improve collaboration and coordination between the Department's 
Operating Administrations.
    We will also promote research into Intelligent Transportation 
Systems, including Vehicle-to-Vehicle technologies. Vehicle-to-Vehicle 
(V2V) connectivity provides constant communication between vehicles to 
warn drivers of the potential risk of a collision. In fiscal year 2013, 
the Intelligent Transportation Systems (ITS) program will dedicate a 
total of $22.4 million to the V2V program, and the corollary programs 
including human factors research, the implementation of a safety pilot, 
vehicle connectivity policy research and standards development to 
further explore and advance technologies that will ultimately reduce 
the number of collisions and save lives.
                       pressing forward on safety
    Keeping travelers on our transportation systems safe is my top 
priority. That is why preventing roadway crashes continues to be a 
major focus at the Department. In fiscal year 2010, highway fatalities 
were the lowest since 1949--and yet over 30,000 lives are still lost 
each year on our Nation's highways.
    Our budget proposes a record level of investment in safety. The 
fiscal year 2013 budget requests $981 million, the first year of $7.5 
billion over 6 years, for the National Highway Traffic Safety 
Administration to promote seatbelt use, get drunk drivers off the road, 
and ensure that traffic fatality numbers continue dropping from current 
historic lows. Within this amount, $50 million in fiscal year 2013 and 
$330 million over 6 years is provided for the Department's ongoing 
campaign against America's distracted driving epidemic. In addition, we 
will almost double the investment in highway safety infrastructure 
funding over 6 years. The fiscal year 2013 budget requests $2.5 
billion, the first year of $17 billion over 6 years, for Federal 
Highway Administration (FHWA) safety construction programs. The fiscal 
year 2013 budget also requests $580 million, the first year of $4.8 
billion over 6 years for the Federal Motor Carrier Safety 
Administration (FMCSA) to ensure that commercial truck and bus 
companies maintain high operational standards, while removing high-risk 
truck and bus companies and their drivers from operating.
    Transit safety is another important priority. Rail transit provides 
over 4 billion passenger-trips each year, and safely moves millions of 
people each day. However, as shown by recent accidents and safety-
related incidents, we need to strengthen the existing Federal transit 
oversight authorities in order to maintain the safe performance of our 
transit systems. The fiscal year 2013 President's budget proposes $45 
million to enable the Federal Transit Administration to oversee rail 
transit safety across America. Funds will be used to develop, promote, 
and conduct safety oversight activities for rail transit systems 
nationwide.
    Finally, our safety focus must also include the transportation of 
hazardous materials and our network of pipelines. The President's 
fiscal year 2013 budget requests $276 million for the Pipeline and 
Hazardous Materials Safety Administration to help ensure that families, 
communities, and the environment are unharmed by the transport of 
chemicals and fuels on which our economy relies. We are proposing a new 
Pipeline Safety Reform initiative that will expand the oversight of our 
Nation's pipeline system. Under this initiative, we will hire 120 new 
inspectors and provide an additional $20.8 million in grant funding to 
work collaboratively with the States on the oversight of interstate and 
intrastate pipeline facilities.
                               conclusion
    Thank you for the opportunity to appear before you to present the 
President's fiscal year 2013 budget proposal for the Department of 
Transportation and our Surface Transportation Reauthorization proposal. 
Our infrastructure belongs to all of us. It is more than the way we get 
from one place to another; it is the way we lead our lives and pursue 
our dreams. The President's plan charts a bold new course for 
transportation infrastructure investment in the United States over the 
years to come. I look forward to working with the Congress to put 
people back to work making a transportation system that is the envy of 
the world--and an America that is built to last.
    I will be happy to respond to your questions.

    Senator Murray. Mr. Secretary, thank you very much for all 
your work on this, again.
    Senator Lautenberg. I'd like to make a statement, if I 
might.
    Senator Murray. Turn your mike on.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. My wife never tells me I need a mike.
    I'd like to congratulate Secretary LaHood for a job well 
done. A lot of hard work, but it is a little bit of a salutary 
moment. One, is to congratulate him for the return of his son 
from----
    Mr. LaHood. Thank you.
    Senator Lautenberg [continuing]. Incarceration in Egypt.
    Two, to say to our colleague from Maine that we wish her 
well in the impending marriage and soon engagement.
    Senator Murray. I decided not to embarrass her and bring 
that up.
    Senator Lautenberg. I ask that my full statement be put in 
the record.
    Senator Murray. Without objection. Absolutely.
    [The referenced statement was not submitted.]

                         VOW TO HIRE HEROES ACT

    Senator Murray. Again, Secretary, thank you.
    I wanted to ask you about one of my highest priorities, 
which is to help veterans transition from their life in the 
military into civilian employment.
    Last year, we passed the VOW To Hire Heroes Act, which 
includes a number of provisions to help our servicemembers as 
they transition, plan for employment after they leave the 
military, to help translate their military skills into the 
private sector, and to gain civilian work experience.
    I understand that the Federal Motor Carrier Safety 
Administration, the Department of Defense (DOD), and the 
teamsters have worked together on a commercial driver's license 
(CDL) veterans-to-work initiative to help our military drivers 
transition to the commercial motor carrier industry.
    And as part of the effort, FMCSA issued a regulation last 
May that gave State DMVs (departments of motor vehicles) the 
ability to streamline their licensing process for veterans so 
that they can meet certain comparable standards of experience.
    Today, we only have 15 States that have taken advantage of 
this new authority. Three are in the process, and 8 States have 
declined, the remainder are still talking about it.
    Can you share with us any knowledge that you have about why 
States are not taking advantage of that new authority?
    Mr. LaHood. Senator, first of all, let me thank you for 
your leadership on Veterans Affairs, and the interest that you 
have taken in veterans.
    We are working to increase opportunities for veterans. In 
May 2011, our Federal Motor Carrier group promulgated a new 
regulation that does allow States to waive the skills test 
portion of the CDL licensing process for military personnel who 
can prove 2 years of safe driving experience. The regulation 
makes it easier for current military CMV (commercial motor 
vehicle) drivers to become licensed through a civilian DMV. We 
are working with the American Association of Motor Vehicle 
Administration and the U.S. Army to implement the regulation.
    But your statistics are correct. We need to continue to 
work with States on this to promote this program, to make sure 
that States understand that this opportunity exists. At this 
time, 15 States now offer the waivers of the skills test for 
military personnel who do provide proof of safe driving 
experience. Three States are moving to make this happen, 8 
States have declined, and 25 other States have not indicated 
their plans.
    I want to commit to you that we will continue. We have 
great partners at the States on these safety programs, and our 
motor carrier organization provides money to States for other 
safety. And we want to, we are going to step up on this, we 
really are.
    Senator Murray. Okay. I really appreciate that, and if you 
can find out for us, is it a barrier in those States? Is there 
something we do not see? Or is it just a matter of them not 
knowing the program is available?
    Mr. LaHood. Yes, I think it is probably a matter of whether 
we have not been as aggressive as we can be, and really going 
to legislative leaders, and Governors, and asking them to 
really make this available. I think we can do better.
    [The information follows:]

    The Federal Motor Carrier Safety Administration (FMCSA) administers 
the commercial driver's license (CDL) program nationwide by assuring 
that State Driver Licensing Agencies (SDLA) are in compliance with 
Federal statutes and Agency regulations. Each State has authority to 
issue CDLs following guidelines (Regulations) promulgated by FMCSA. 
These guidelines represent the minimum States must do. States may 
implement additional requirements on drivers seeking a CDL.
    In May 2011, FMCSA promulgated a new rule (49 CFR 383.77) that 
allows SDLAs to waive the CDL skills test for military personnel with 2 
years of safe driving experience. The latest survey shows that 17 
States now offer to waive the skills test; 5 States are in the process 
of instituting this option; and 8 States have opted not to take 
advantage of the option at this time. The remaining 21 States have not 
responded to queries of their status. The States that do not offer the 
waiver explain that for a variety of reasons, this is not a priority. 
These reasons include that instituting the waiver may require State 
legislative revisions or instituting new administrative and technical 
processes. In some cases, States provide budgetary and personnel 
limitations as reasons for not implementing the provision.
    When comparing the civilian equivalent of a CDL to the military 
heavy-duty truck license, the best comparison is the Army's 88M 
training, which both the Army and Marine Corps use to gain this 
qualification. FMCSA, in cooperation with the American Association of 
Motor Vehicle Administrators (AAMVA) and the U.S. Army Reserve 
Command's MPO, has developed a standardized process to make the 
transition from 88M qualification to a CDL less burdensome. A waiver 
form has been created that allows a State to validate the soldier, 
sailor, airman, or marine's safe driving record in the appropriate 
vehicle, supported by the signature of the soldier's commanding 
officer.
    FMCSA is currently exploring additional opportunities to help 
servicemembers and veterans that operate or have operated a CMV in the 
military to get a CDL. These options include waiving the domicile rule 
requirement for military personnel (which would require an act of 
Congress) as well as designating the military as a third-party tester 
for the standardized CDL skills test.

    Senator Murray. Yes, okay. Good. I know the Army has been a 
really great partner in that effort.
    Mr. LaHood. Right.
    Senator Murray. Is there any way we can expand that 
collaborative partnership that you have developed with the Army 
to help our other services?
    Mr. LaHood. Maybe what I should do is try and meet with the 
Secretaries of the other armed services, and I will do that, 
and the appointed secretaries and make them aware of this 
program. That is a good idea.
    Senator Murray. Okay, great. I would really appreciate 
that, and certainly let me know if there is anything I can do 
to help----
    Mr. LaHood. Thank you.
    Senator Murray [continuing]. Help move that along. I would 
also encourage you to work with the Department of Labor and let 
them know what you are doing, as they have been involved with a 
lot.
    Mr. LaHood. Good idea.

                      SAFETY FITNESS DETERMINATION

    Senator Murray. Great. I appreciate that.
    Since 2000, the National Transportation Safety Board (NTSB) 
has recommended that the FMCSA change its method of evaluating 
the safety and performance of carriers. And as a result, FMCSA 
began to implement its Comprehensive Safety and Accountability 
program, known as CSA, back in 2004.
    The Safety Fitness Determination rulemaking is the 
cornerstone of that program, and the rule was initially 
scheduled to be finalized in 2009. It has been delayed 
repeatedly. Until the rule is finalized, FMCSA is still using 
the review system that NTSB believes is inadequate.
    So I wanted to ask you when you expect to publish the 
Notice of Proposed Rulemaking (NPRM), and if you still intend 
to assess driver fitness, and what the plan and timetable is 
for that.
    Mr. LaHood. This is, obviously, a part of our safety 
agenda. It is very important and our staff is working with our 
colleagues at Office of Management and Budget (OMB) to make 
sure that we get it right.
    But for the record, I will get back to you and give you 
some clearer date on when we will be issuing the----
    Senator Murray. Okay. So is the challenge at OMB at this 
point?
    Mr. LaHood. The challenge is just working through this, and 
making sure we get it right, and working with our colleagues at 
the White House.
    [The information follows:]

    The Federal Motor Carrier Safety Administration (FMCSA) is 
preparing to publish a notice of proposed rulemaking (NPRM) later this 
year that will revise how the Agency determines the safety rating of 
motor carriers. This NPRM will incorporate a motor carrier's on-road 
safety performance and compliance data into the Agency's safety fitness 
determination (SFD) while continuing to use the findings from 
investigations that currently determine a carrier's safety rating. This 
will allow the Agency to incorporate for the first time data from more 
than 3.5 million annual roadside inspections into a motor carrier's 
safety rating and will ensure sustained safe performance by the motor 
carrier industry.
    This rulemaking will only cover the safety ratings of carriers 
because FMCSA does not currently have explicit authority to include 
drivers. The Agency contends it has explicit authority to establish 
safety fitness provisions applicable to CMV ``owners and operators'' 
but it is not clear that these provisions expressly apply to drivers.
    FMCSA provided technical drafting assistance to Congress in May 
2011 that would clarify its authority to determine the safety fitness 
of commercial motor vehicle (CMV) drivers. The Senate included this 
provision in its surface transportation reauthorization bill that 
passed the Senate on April 24, 2012. Enacting the Senate provision 
would strengthen FMCSA's ability to identify high-risk commercial 
drivers and remove them from service.
    Conceptually, a driver SFD would entail the Agency establishing an 
SFD standard through which it would rate a driver unfit based on a 
series of factors rather than waiting for the driver to be convicted of 
a disqualifying offense. This would allow the Agency the opportunity to 
look at a driver's overall safety and compliance history (violation 
rates, crashes, etc.) and determine that the driver's safety 
performance is poor enough to warrant a proposed SFD of ``unfit.''
    This clarification would help the Agency address recommendations 
and concerns from the Government Accountability Office, the National 
Transportation Safety Board, and stakeholders.

    Senator Murray. Okay. Senator Collins.

                           DISTRACTED DRIVING

    Senator Collins. Thank you, Chairman.
    Mr. Secretary, as I mentioned in my opening statement, you 
have demonstrated very strong leadership on the growing safety 
problem that is caused by distracted driving. In fact, I read 
one newspaper story that said you have been known to drive 
around Washington honking at drivers who are using their 
portable devices when they should be paying attention to the 
road ahead and behind them.
    But the fact is, this is a very serious problem. Just last 
week in my home State of Maine, text messaging was the key 
factor in a crash that killed the driver and seriously injured 
her passenger. In 2009, hundreds of thousands of people were 
injured in crashes reported to involve some kind of 
distraction, and the proliferation of electronic devices is 
clearly contributing to this growing problem.
    Could you explain to the subcommittee what the Department 
is doing through its budget to encourage greater public 
awareness of the dangers of distracted driving, and also, to 
urge States to pass distracted drivers laws?
    Mr. LaHood. Thank you.
    This is obviously something that is at the top of our 
safety agenda. When we started this campaign 3\1/2\ years ago, 
only 8 States had passed laws. Now 35 States plus the District 
of Columbia and Guam have passed laws. We need every State to 
pass a law.
    In the past, in the Senate, there have been bills 
introduced about distracted driving, and I would encourage any 
of you. We would be happy to provide any of you technical 
assistance if you all wanted to introduce a bill on distracted 
driving. We get asked all the time, ``Will there be a Federal 
law?'' And I do not know that there have been any bills 
introduced this year in this session of Congress about 
distracted driving. So if we can be helpful on that, we 
certainly would be.
    We are making progress. The money that is being proposed in 
the budget would be used for grants to States, similar to what 
we did with ``Click It Or Ticket'' so that law enforcement 
people can give tickets to people who are not wearing their 
seatbelts. As a result of two decades of Click It Or Ticket--
good enforcement, good laws--86 percent of the people, the 
first thing they do when they get in their car is buckle up, 
but it has taken two decades, good laws, good enforcement, and 
some of these grants.
    We would also similarly use some of the money to give to 
communities like we did for Hartford and Syracuse. We gave them 
each $200,000. They matched it with $100,000. They put police 
on street corners; that is how they used the money. They wrote 
tickets for people that were on cell phones; and distracted 
driving went down. So that is one of the ways we would 
obviously raise awareness, use it for enforcement. When States 
want to pass laws, we have model legislation that we provide to 
them.
    Senator Collins. Thank you for that update.
    I think that kind of technical assistance and helping to 
share best practices that the Department has found is very 
helpful. And that is very impressive that the number of States 
with such laws has grown from 8 to 35.
    Mr. LaHood. Yes.

                     HIGHWAY TRUST FUND INSOLVENCY

    Senator Collins. And I think that is directly due to the 
fact that you have personally made it a priority, and put a 
real spotlight on it.
    Let me turn now to the Highway Trust Fund. This is a very 
difficult issue. As you know, it has been operating at an 
unsustainable deficit since 2008, and has required 
approximately $35 billion in transfers, and those are deficit 
finance transfers in order to keep the Fund solvent. CBO 
estimates that the Fund will, once again, be insolvent or 
bankrupt sometime in the next fiscal year.
    The President's budget request really does nothing to fix 
that shortfall. In fact, you could argue that the spending 
increases will make matters worse, and yet we have such needs 
out there.
    The administration's solution appears to be to transfer 
billions of dollars from the General Fund to the Highway Trust 
Fund every year. And it is my understanding that the budget 
estimates some $17 billion in transfers will be required to 
keep the Trust Fund solvent through the end of fiscal year 
2013.
    Are you concerned that using the General Fund in this 
matter undermines the whole concept of the Highway Trust Fund?
    Mr. LaHood. We know the Highway Trust Fund has been 
diminished because people are driving less and driving more 
fuel efficient cars. So the money is just not there for all the 
things we need to do in America.
    The President this year in his budget proposed using the 
Highway Trust Funds, plus the funds that have been used for 
Iraq and Afghanistan, half of those funds as a means to pay for 
his budget. And I do want to send up a flare, and I want to 
send up a little alarm.
    You all have done your work here. You passed a 
transportation bill. If the House does not pass a 
transportation bill, and passes another short-term extension, 
to be honest, in a State like yours, Senator Collins, where you 
have a very short construction window because of the weather in 
Maine, it will be very difficult for your State DOT to really 
do anything big in your State.
    We need a transportation bill. We need the bipartisan bill 
that was passed in the Senate. If that happens, then we do have 
a big blueprint. In the absence of that, a short-term extension 
does no good for your State in terms of your ability to really 
fix up roads and bridges, and it is of great concern to us.
    I know that really was not your question, but since you 
raised the issue of funding and the Highway Trust Fund, and the 
fact that you all have passed a bipartisan bill, it is another 
way for us to emphasize this to the House of Representatives, 
this idea of passing just a short-term bill is not going to be 
good for States like Maine.
    Senator Collins. I certainly concur with that. And the fact 
is, short-term extensions drive up the cost because contractors 
cannot plan. They cannot hire----
    Mr. LaHood. That is right.
    Senator Collins. Their employees and thus, they are forced 
to bid a higher amount.
    Mr. LaHood. That is right.
    Senator Collins. Because of the uncertainty. So that part, 
we agree on.
    Senator Murray. Senator Pryor.

                              MARIAH'S LAW

    Senator Pryor. Thank you.
    Mr. Secretary, let me thank you for being here, and begin 
with a thank you for helping the Conway Airport in Arkansas.
    Mr. LaHood. Yes, sir.
    Senator Pryor. You helped move it out of a very congested 
area abutting a freeway and a neighborhood, where there have 
been some fatalities. Thank you for your help, and my 
understanding is that Conway is happy because they have moved 
from a 5-year plan down to a 3-year plan with your assistance, 
so thank you for that.
    Also, thank you for mentioning bipartisanship. I think the 
way we all feel around here is that if Senator Boxer and 
Senator Inhofe can agree on important things, then we all ought 
to be able to agree on important things because they are at 
different ends of the spectrum, but they really provided a 
great example for us.
    And one point of clarification is that in the bill that we 
passed yesterday, there is a provision on distracted driving 
called Mariah's Law, which sets up incentive programs for 
States to try to pass----
    Mr. LaHood. Great. Thank you.
    Senator Pryor. More laws against distracted driving, so 
that may have missed your attention, but I hope you will look 
at that.
    Mr. LaHood. Yes, thank you.

                             SEQUESTRATION

    Senator Pryor. And help us implement that.
    Let me start with a question that I know you do not want to 
answer, you do not want to get into, and that is sequestration. 
If that does happen and there is sequestration, have you looked 
at what it will do to the Department of Transportation's 
programs?
    Mr. LaHood. Let me ask our CFO (chief financial officer) 
just to comment on that.
    Senator Pryor. OK.
    Mr. LaHood. Chris Bertram.
    Senator Pryor. Sure.
    Mr. Bertram. We have not done a very detailed analysis of 
that yet. I think part of the question will have to be to what 
extent trust funded programs from the Highway and Aviation 
Trust Funds are affected as opposed to the General Fund, but we 
do not have a detailed analysis of that yet.
    Senator Pryor. Thank you for that. As you do that analysis, 
I think it would be helpful if you would get back with the 
subcommittee here and let us know what the ramifications----
    Mr. LaHood. We will do that.

                           PRIORITY CORRIDORS

    Senator Pryor. Of sequestration might be.
    Also, I have a question about future interstate corridors. 
I know that we are in a very difficult budget environment and 
difficult fiscal times for the Federal Government. However, I 
think it is critical that we continue to invest in our 
infrastructure that not only creates jobs now, but it is huge 
investment in the future.
    I know that when you look at a map of the various 
interstate highway systems in the country, there are several 
highways that have not been built, several interstates have not 
been built. In these difficult budget times, I know that we do 
not really take care of that in the recently passed surface 
transportation bill, but as we look out to the future, do you 
have a recommendation for how we should fund these future 
significant corridors or these high-priority corridors to try 
to make sure that we actually do get them built, given the 
constraints that we have?
    Mr. LaHood. I think the States need to get into a position 
of getting everything planned, get the environmental work done 
so that if there are resources available, they are in a 
position to come to the Department of Transportation.
    This idea that we cannot continue to make progress without 
earmarks is not accurate. We got $48 billion in the economic 
recovery plan. It came directly to DOT, and because of the 
great partnerships we had with States and transit districts and 
airports, we spent that in 2 years on 15,000 projects and put 
65,000 people to work, and there were no earmarks.
    So if States are ready with projects, and they have their 
environmental work done, and the money becomes available, we 
are ready to go and they are ready to go.
    I think if nothing else, that is what one thing that the 
economic recovery, our stimulus money, proved--that we can do 
this without earmarks because of the great partnerships we have 
with the States.

                            VETERANS TO WORK

    Senator Pryor. Okay. Thank you for that.
    Let me also follow up on something that Senator Murray said 
a few moments ago when she was talking about veterans.
    Mr. LaHood. Yes.
    Senator Pryor. And obviously, that is important to you and 
you all have discussed the Veterans to Work Initiative.
    We do something in our State that is not directly related 
to veterans, but could be, and it could be a national model, 
and that is the trucking industry has partnered with some 
community colleges to do some training. If someone finishes 
their training, and gets their CDL and gets a job, then part or 
maybe all of their tuition is forgiven to help them jumpstart 
their career.
    We could very easily tailor that towards veterans, and it 
sounds very similar to what you are doing.
    Mr. LaHood. Yes.
    Senator Pryor. If you are not aware of what they are doing 
in Arkansas, I would encourage your people to look at it.
    Mr. LaHood. Yes.
    Senator Pryor. And see if it could apply, because really, 
that is a good example of a State and industry partnership.
    Mr. LaHood. Yes.
    Senator Pryor. And you could fit the Federal Government, 
the VA (Department of Veterans Affairs), and everybody else in.
    Mr. LaHood. Sure.

                              TIGER GRANTS

    Senator Pryor. It could really help a lot of our veterans.
    I am really out of time here, so let me just ask if you 
have a timeframe on when you will release or announce this 
round of TIGER grants?
    Mr. LaHood. Late May.
    Senator Pryor. Late May.
    Mr. LaHood. Yes.
    Senator Pryor. So they are due about now.
    Mr. LaHood. They are due next Monday.
    Senator Pryor. Okay. So late May we will know.
    Mr. LaHood. Yes.
    Senator Pryor. Okay. Thank you, very much.
    Mr. LaHood. Thank you for all of your leadership, Senator. 
It has been great to work with you, not only for the country, 
but for your State, and we look forward to doing that.
    Senator Pryor. Thank you.
    Senator Murray. Thank you very much.
    Senator Lautenberg.

                         AMTRAK GATEWAY TUNNEL

    Senator Lautenberg. Thanks, Madam Chairman. And thanks 
again, Mr. Secretary.
    Amtrak has proposed building the Gateway Tunnel under the 
Hudson River to increase high-speed rail and commuter rail 
capacity. The current tunnel is at capacity during rush hour 
and ridership is expected to double in the next two decades.
    It is not unlike the development of the highway system 
being done in the early 1950s when the country had a population 
of 170 million. Now we have a population of 310 million and we 
are suffering from not having done the things that we should 
have done many years ago.
    You have looked at this proposal many times. What impact 
might the Gateway Tunnel project have on mobility and the 
economy in the Northeast corridor?
    Mr. LaHood. We are working with both New Jersey and New 
York. We know this tunnel is absolutely critical and we will 
continue our work.
    Look, if this is the priority for the region, then it 
becomes a priority for us.
    Senator Lautenberg. Mr. Secretary, do you see this tunnel 
in a larger context because what happens there in terms of rail 
service affects much of the country, much of the Atlantic 
coast. And it also would get some over 20,000 cars a day off 
the highway. And so it is of national interest, whether it is 
convenience and reliability or whether it is better air and 
less dependence on foreign oil.
    We have a situation in New Jersey where we have a 100-year-
old bridge called the Portal Bridge. It is one of the few 
things in New Jersey that is older than I am. The bridge has 
persistent problems that delay trains and cause devastating 
ripple effects in the entire Northeast corridor (NEC).
    What is the Administration's plan for helping to upgrade 
this important, critical bridge?
    Mr. LaHood. The Department has funded about $1.7 billion in 
NEC through the high-speed rail funds. The Portal Bridge 
replacement, $38 million for the final design and the Moynihan 
Station Phase 1, $83 million. Both projects are 100 percent 
obligated.

                            TRANSIT FUNDING

    Senator Lautenberg. Public transportation use is 
approaching record levels. Yet, our friends in the House 
recently tried to eliminate dedicated funding for transit 
programs.
    What impacts would commuters face if they prevail and had 
their way, and transit funding was not protected?
    Mr. LaHood. Senator, one of the reasons that I said that 
that particular House bill was the worst House bill that I had 
seen in 35 years of public service is because it gutted 
transit. When gasoline prices go up, transit ridership goes up. 
We know gasoline prices are going up. Transit is the lifeblood 
of transportation for many people in America to get to work, to 
get to a doctor's appointment, to go to the grocery store.
    And certainly in your area, which is a transportation-
centric center of the world, transit is absolutely critical. We 
need a good, strong transit program to continue state of good 
repair, but also to innovate and create new opportunities.

                           NATIONAL RAIL PLAN

    Senator Lautenberg. I agree with that. The number of jobs 
that could be created almost instantly is enormous, and the 
subsequent job opportunities for commutation and travel through 
the area represent an almost magic look at what could be.
    My 2008 Amtrak law required DOT to complete a comprehensive 
national rail plan. The Surface Transportation Bill that the 
Senate approved this week was a good bill, bipartisan, 
excellent bill, really. Each side gave a little bit, and each 
side took a little bit. It really is a great move forward.
    So the bill that the Senate approved this week further 
details the need for the plan. When might we see a final 
national rail plan from DOT?
    Mr. LaHood. We are working on it and we will, for the 
record, get you a date certain when we will be complete.
    [The information follows:]

    The Federal Railroad Administration (FRA) published a Preliminary 
National Rail Plan (NRP) in October 2009 following the direction of 
Congress, and a subsequent update of the NRP was made in the September 
2010 Progress Report. These documents--combined with the policies and 
funding levels described in the Administration's fiscal year 2013 
budget proposal and 6-year investment strategy--articulate the future 
of intercity passenger rail for America.
    In October 2011, FRA submitted to Congress a Public Investment and 
Business Case for four major corridor programs that were funded through 
fiscal year 2010 appropriations (Los Angeles-San Francisco, Chicago-
Detroit, Chicago-St. Louis, and Chicago-Iowa City). Consistent with 
requirements established in the fiscal year 2010 appropriations, these 
documents summarized the need for these investments, quantitatively and 
qualitatively assessed benefits and costs, and reviewed implementation 
and operating plans.
    Since fiscal year 2009, State and Federal rail planning has 
progressed significantly as well as their experience with new rail 
development. The need to revise and update the NRP will be incorporated 
as the program matures. FRA continues to undertake a number of 
interrelated planning and analysis efforts--all of which include 
substantial engagement with our State partners and other stakeholders--
that will result in further iterations of the NRP and related 
documents.

    Senator Lautenberg. I would appreciate that. Thanks very 
much.
    Mr. LaHood. Senator, I look forward to being with you on 
Monday. You and Senator Menendez, I think, were going to be 
together in Hoboken talking about the transportation bill and 
about transit.
    Senator Lautenberg. Yes, I look forward to that.
    The Secretary was in New Jersey yesterday, Madam Chairman 
and colleagues, at a funeral for a Congressman Donald Payne. 
And the place was overflowing with, yes, sadness, but also the 
fact that he was almost an icon in terms of being the first 
minority member of the House from New Jersey. And the Secretary 
was there and made a very good speech, and it was very helpful, 
and we thank you.
    You are always welcome in New Jersey, and if you cannot get 
a ticket on the train, I know some people. Thank you.

                             FERRY SYSTEMS

    Senator Murray. Thank you, Senator Lautenberg.
    Mr. Secretary, when you came out and visited my home State 
of Washington, you saw and rode on our ferry system, and saw 
how essential it was to our transportation system. And you know 
that the Federal partnership that supports our ferry system is 
very important.
    In the Senate transportation bill that we hope the House 
takes up, I worked to create a formula to really prioritize and 
target Federal funding to our Nation's largest ferry systems, 
and it requires enhanced coordination among the numerous DOT 
agencies and programs that support ferries. These changes, we 
believe, will help reduce administrative costs and improve the 
efficiency and effectiveness of our Federal investments.
    I am going to continue working for a Federal program that 
will support our Nation's ferry systems, but you already have 
the authority to make improvements at DOT on coordination and 
data collection. And I wanted to ask you if you will work with 
me to make sure DOT is focused on that.
    Mr. LaHood. The way the trains are important for the 
Northeast corridor, ferries are important for the Northwest, 
and we recognize that. And certainly the opportunity that you 
provided to me to see firsthand the importance of it--you have 
my commitment that we will make sure that the Northwest, and 
particularly the State of Washington, has the ability to 
deliver people around on ferries.

                       PASSENGER FACILITY CHARGES

    Senator Murray. I appreciate that very much.
    Another topic. Your budget request would cut airport grants 
drastically and focus the program only on general aviation and 
small commercial airports. To replace the grants that would 
have gone to the large and medium airports, you are asking 
Congress to increase the cap on passenger facility charges 
(PFCs).
    This request, as you know, is the same one that you 
submitted last year. However, last year, Congress was still 
developing its bill to reauthorize the FAA. This year, we have 
enacted FAA reauthorization laws and it does not include an 
increase to the cap on PFCs.
    So I wanted to ask you how you now propose paying for 
airport infrastructure when we do not have an increase to PFCs?
    Mr. LaHood. I am going to let Chris just talk about this 
for a minute, because he has worked with OMB on this.
    Mr. Bertram. Senator, our proposal would only take effect 
if there were a change in the PFC cap. So in the absence of a 
change in the PFC cap, we would propose to have the same 
funding level as we had last year, the baseline level for AIP 
(Airport Improvement Program).
    Senator Murray. Okay. We have got to make sure airports can 
make capital investments, and airport grants and PFCs both play 
a really important role in that.
    So as part of the next reauthorization bill, would you 
support allowing large and medium airports to voluntarily opt 
out of the airport grant program in order to increase their 
PFCs?
    Mr. LaHood. We believe airports are a real economic engine 
for communities. They provide a lot of jobs, and obviously, we 
have to have modern airports. Airports need the ability to 
improve infrastructure and to build new facilities and to make 
sure they have the capability to continue, that planes can fly 
in and out safely. I certainly would be willing to work with 
all of you on that and also with airports.

               NEXT GENERATION AIR TRANSPORTATION SYSTEM

    Senator Murray. Okay. On another topic.
    Your budget request includes over $1 billion for NextGen, 
the effort to modernize our air traffic control system. For 
NextGen to work, each aircraft has to be equipped with 
compatible technology, as you well know. The FAA has mandated 
that aircraft be equipped with some of this technology by the 
end of the decade, but there is no guarantee that airlines will 
be able to meet that requirement.
    The FAA reauthorization law allows DOT to set up a program 
to provide loan guarantees to support the equipage of aircraft 
with this NextGen technology.
    Can you talk a little bit about what steps you have taken 
to explore setting up that program?
    Mr. LaHood. We have had many, many meetings with our 
colleagues at the White House, particularly those on the 
economic team, about this. And we have involved the airlines in 
this also.
    We recognize that the airlines are starting to come back. 
They are starting to be more financially viable. Many are 
actually starting to make money, and we want to make sure that 
putting a requirement for this kind of technology in every 
airplane does not inhibit their ability to continue to make 
progress financially.
    We are trying to figure out a way that we can be helpful 
with the funding, so that the airlines keep up with the 
progress we are making in putting the technology in the TRACONS 
(terminal radar approach control facilities). We have had a lot 
of meetings about this, and I think everybody recognizes that 
some way, shape or form we have to be helpful here to the 
airlines, at least in the early stages as this technology is 
being put in airplanes.
    Senator Murray. Do you have all the legal authority you 
need as a Department to implement something to----
    Mr. LaHood. Yes, I believe we do.
    Senator Murray. Okay. I appreciate that.
    Senator Collins.

                      REINCARNATED MOTOR CARRIERS

    Senator Collins. Thank you, Madam Chairman.
    Mr. Secretary, there are unscrupulous motor carriers that 
reregistered themselves under new identities in an effort to 
evade accountability for past poor safety practices.
    So, one of the goals discussed in your budget is preventing 
these chameleon carriers from reentering the commercial motor 
carrier industry. However, only about 2 percent of new carriers 
each year are examined by FMCSA prior to entering the industry.
    What are your plans to try to prevent these reincarnated 
bad actors from invading FMCSA enforcement action by reentering 
the industry as supposedly new carriers?
    Mr. LaHood. I want to say that our administrator, Anne 
Ferro, has worked very hard on this. This is a very, very 
serious problem.
    If safety is our number one priority, which it is, then it 
has to be safety in all modes including trucking and busing. We 
have motor coach carriers doing the same thing; put them out of 
business, and they slap another name up on the bus.
    And so, what Anne has done is set up a taskforce where she 
gets all of the key people in the room, and they begin to track 
these companies, and make sure that they are not just putting 
another name up on the company so that they can continue to 
operate. And we are working very hard on this; it is a top 
priority.
    We have a taskforce that works 24/7 to make sure that these 
companies do not operate.
    Senator Collins. That is great to hear, and this is 
something where I believe the industries, whether the motor 
coach side or the commercial truckers, are very eager to work 
with you.
    Mr. LaHood. They are.
    Senator Collins. They do not want to see----
    Mr. LaHood. They do not.
    Senator Collins. Those bad actors on the road.
    Mr. LaHood. You are absolutely right.

                            CONTRACT TOWERS

    Senator Collins. Next, I would like to turn to another 
provision of the budget, which proposes an increase in the 
local share for the Contract Tower Cost-Sharing Program.
    Under the budget proposal, the local share, which is 
currently capped at 20 percent, would increase to 50 percent. 
Now, that does help the Federal budget. It results in savings 
of about $2 million. But I worry that smaller community 
airports will simply not have the funds to contribute more than 
the current 20 percent, and could potentially be forced to shut 
down operations.
    As these changes were evaluated, were the impacts on 
smaller airports considered and included in your 
decisionmaking?
    Mr. LaHood. Let me say that the fiscal year 2013 budget 
that the President proposed was released shortly before the FAA 
authorization. We need to get the two in sync here; we know how 
important these contract towers are, and we know that people 
have limited resources.
    We will make sure that what we do comports with the idea 
that, number one, the contract towers are important. And number 
two, that we do not impede on their ability to really be able 
to continue these.
    Senator Collins. Thank you.
    Thank you, Madam Chairman.
    Senator Murray. Thank you very much, and we have been 
joined by the distinguished chairman of our subcommittee. We 
are delighted to have him here.
    Senator Inouye.

                         HONOLULU RAIL PROJECT

    Senator Inouye. Thank you very much.
    Mr. Secretary, I thank you for your request of $250 million 
for the city and county of Honolulu rail project, and I 
understand that this was the single largest request in the New 
Starts portfolio, and I thank you for your support of this 
important project for my State.
    The city and county of Honolulu is currently involved, as 
you may be aware, in a Federal court case regarding the rail 
project. According to media reports in Hawaii, as part of the 
discovery process, emails from 2006 and 2009, written by 
Federal Transit Administration staffers, express concerns about 
the rail project.
    So Mr. Secretary, I wonder whether you could share with us 
the Department of Transportation's stance on this project at 
this moment.
    Mr. LaHood. Senator, the press reports, the emails that you 
make reference to were prior to my taking this position. And 
since I have taken this position, I have had the privilege of 
being with you in your State. We have talked about this 
project. You were kind enough to convene a meeting about this 
and other projects in Hawaii. And I want you to know that we 
are committed to this project.
    This is an important project. This will deliver people all 
over the island. It is an important project, and at this point, 
we are going to continue to work through whatever issues need 
to be worked through. We are committed to this. We are 
committed to the money. We are committed to the project, and 
until we hear differently from others who are intimately 
involved in this, I see no reason why we will not go forward.
    Senator Inouye. Mr. Secretary, thank you very much. On 
behalf of all the people of Honolulu, thank you.
    Mr. LaHood. Thank you, sir.
    Senator Inouye. Thank you, Madam Chairman.

                           CHAMELEON CARRIERS

    Senator Murray. Thank you, very much, Senator Inouye.
    I just wanted to quickly follow up on Senator Collins's 
discussion of the chameleon carriers. I know that you are 
looking at passenger and business, but freight is an important 
part of that. I know the GAO (Government Accountability Office) 
report identified that as a concern as well.
    Are you going to include freight in that?
    Mr. LaHood. We have really focused on motor coach and 
trucks, but we can take a look at freight, sure.
    Senator Murray. Okay. The GAO identified that as a concern 
as well.
    Mr. LaHood. Okay.

                     COLUMBIA RIVER CROSSING BRIDGE

    Senator Murray. So I appreciate Senator Collins bringing 
that up.
    I did want to ask you about a local project that you know a 
lot about as well--the Columbia River Crossing Bridge. I really 
appreciate your focus on that. It is so important to us in the 
Pacific Northwest. We have been working on it for years. It is 
a very complex project, but it is making progress and, in fact, 
in December, all the environmental planning work was completed. 
And last month our State Senate approved tolling authority that 
they need to help pay for it. So I am really pleased to see 
that your budget includes funding for it as well.
    But I was concerned to see some recent press reports that 
there may be disagreements between your Department and other 
Federal agencies about the bridge's planned height, an issue 
everyone thought, frankly, was resolved years ago. And I wanted 
to ask you what kind of impact would changing the design of the 
Bridge at this point, as the Coast Guard is suggesting, have on 
this project?
    Mr. LaHood. First of all, we are totally committed to the 
Columbia River Crossing. This is going to be a model for 
multimodal transportation. When you look at all the different 
modes of transportation that will be involved with that bridge, 
it truly is multimodal, and it is bi-State, it is bipartisan, 
it is about everything, any way you can describe it. It is a 
great project.
    What I would like to suggest, Senator, is either you, or 
you and I convene a meeting, maybe in your office as soon as 
you want to do that to make sure everybody is on the same page, 
and that the deadlines are met.
    Senator Murray. Okay.
    Mr. LaHood. We have had a little hiccup here, but that is 
not going to stand in the way of this project moving forward. 
We are not going to let it stand in the way of that, but to 
make sure that everybody knows what the facts are.
    Senator Murray. Right.
    Mr. LaHood. What the deadlines are--if you want to convene 
a meeting, or if you want me to, or you and I both, we will get 
the Coast Guard, DOT, and everybody else that is involved in 
this, the two States, and make sure everybody is on the same 
page so there are no delays.
    Senator Murray. Okay. Very good. I would really like to do 
that, and perhaps the FAA as well, because if you make the 
bridge----
    Mr. LaHood. Fine. Yes. Perfect.

                                BIOFUELS

    Senator Murray [continuing]. Higher than the airport--it is 
a complex project. Okay. Very good. We will follow up with 
that.
    Let me ask you about rising gas prices, an issue that 
everybody is concerned about. We are seeing increases in 
transit ridership, as she talked about a few moments ago. Gas 
prices are hurting everyone. And as you and I have talked about 
before, we need to look at all the alternatives to fossil fuels 
when it comes to cars, and buses, and ferries, and ships, and 
planes.
    One of those alternatives is biodiesel, which is a cleaner 
burning, homegrown product that has huge potential. And I am 
working with the Department of Defense, major airlines, and a 
lot of people to expand the availability and market for 
biodiesel and other biofuels, working with agriculture and the 
biofuels industry. So I think there is a real capacity here.
    And I wanted to ask you today, what do you think it will 
take to expand the use of biodiesel and other biofuels across 
the modes of transportation, so we can help expand and really 
get a market for these types of alternatives?
    Mr. LaHood. As you know, this administration from the 
President to just about every Cabinet Secretary involved has 
worked very hard on fuel efficiency. You know where we have 
gotten.
    By 2025, cars will get 54.5 miles per gallon. Every car 
manufacturer has signed off on this. They stood with the 
President when he made the announcement. This is an 
extraordinary opportunity for our country to set the very 
highest standards possible, and we have worked very closely 
with the Environmental Protection Agency to develop these 
standards.
    On biodiesel and on the use of diesel, I think if Congress 
sends a loud message, you are not going to hear any heartburn 
or criticism from the administration. We need good partners on 
this and if you all send a message, I think it can be very 
helpful.
    Senator Murray. Okay. Very good. Thank you very much, Mr. 
Secretary.
    Mr. LaHood. Thank you.
    Senator Murray. Senator Collins.
    Senator Collins. Thank you, Madam Chairman. I am going to 
submit the vast majority of the rest of my questions for the 
record.

                            HIGH-SPEED RAIL

    Senator Collins. I do just want to raise one more issue on 
high-speed rail, even though I hate to end on a note where we 
have different views when we agree on so much.
    But one of the concerns that I have is whether States are 
going to be able to sustain the investment, and California is a 
perfect example of that.
    The administration has put $3 billion into the California 
High-Speed Rail Project. Recently the GAO has confirmed that 
the cost of building the line is likely to increase from $33 
billion to $98 billion. Now that is GAO's opinion, maybe there 
are other estimates, but that obviously is of great concern.
    One of my concerns is if the Department makes this kind of 
investment of billions of dollars, and then the States prove to 
be unable to do their share, and the cost estimates go through 
the roof, then we have not accomplished the goal the 
administration wants. I would rather see that money spent on 
traditional mass transit, and roads, and bridges.
    So my question is, what is the Department doing to ensure 
when you give money to a State for a project like this, that 
the State is going to be able to handle it financially?
    Mr. LaHood. First of all, I think we are at the point in 
this country when the interstate system was started. It took 50 
years to build it and it was not all built in 1 day. I 
guarantee you, when the interstate system was conceived, not 
everybody knew where all the lines were going to be, and 
certainly I do not think people knew where all the money was 
going to come from.
    But I know this: All the money is not going to come from 
the Federal Government. You all have made that pretty clear in 
the money that you have not given us in our last request. But 
for the States that have received money, $3 billion, the 
largest share, has gone to California, over $2 billion to 
Illinois, and a lot on the Northeast corridor. And the States 
are our partners.
    I just spent a week in California. I spent a lot of time 
with the legislature there. In some States what they have done 
is they have passed referendums and they have passed bonding 
issues. So that will be part of what the State will put up.
    There are several foreign companies in California right 
now, meeting with Governor Brown on their ability to invest in 
high-speed rail. I think there will be three sources of funding 
for most States, particularly in California where we really 
will have high-speed rail. You will have trains going 200 miles 
an hour.
    I think the funding sources will be: The Federal 
Government--we have made a good investment, as you mentioned, 
$3 billion; the State will be putting money in through the 
selling of bonds; and I think there will be a lot of foreign 
investment. I really do. These foreign investments are there, 
foreign investors are there. They are meeting with the 
governor. They are talking about partnerships.
    The same is true in Illinois. The Illinois governor is 
working with some foreign investors to make investments in the 
corridor in Illinois. And of course, our partners along the 
Northeast corridor have been Amtrak. Amtrak is doing very well. 
Ridership is up. They are making money. They have good 
leadership. Things have really improved. We just invested about 
$1 billion in Amtrak for new cabinetry, for new cars, and to 
fix up some of the tracks.
    So I do not see all the money coming from the Federal 
Government. There is not enough money. I do see other sources, 
but as an example, the people are way ahead, with all due 
respect, the people are way ahead of Washington on this. And 
what I mean by that is if you look at our TIGER guidance, we 
put in there up to $100 million for high-speed rail. As of 
today, we have $1 billion worth of requests for that $100 
million.
    People in America want different forms of transportation. 
The next generation of transportation for America, for the next 
generation, is high-speed rail. It is what Americans want. 
Every State now has their interstate build out and where 
communities have good transit, they want their highways in a 
state of good repair. But they want passenger rail. They do, 
and that is not just Ray LaHood saying it, or President Obama 
saying it. It is what the people want, and that is reflected in 
the request that we have received for $1 billion for up to $100 
million.
    When Florida gave back their money, $2.3 billion, we got 
$10 billion worth of requests. This is not for Ray LaHood. It 
is not for you two, with all due respect. It is for our kids 
and grandkids.
    What are we going to do for the next generation? What is 
the next generation of transportation? It is not the 
interstate. That is pretty much built out. It is not transit. 
We are doing well with transit. It is high-speed rail. That is 
what we need to leave to the next generation.

                              FREIGHT RAIL

    Senator Collins. Thank you, Mr. Secretary, I know you feel 
very passionately about this issue.
    Let me just end my comments today by thanking you and the 
Department for your commitment, which helped us save freight 
rail----
    Mr. LaHood. Exactly.
    Senator Collins [continuing]. In northern Maine. This was 
233 miles of freight rail track that was going to be completely 
abandoned, cutting off the top half of my State. Through a 
partnership that involved a State bond, private sector 
investment, and the Federal funding, we were able to save that 
track.
    And I want to report to you that it is going extremely 
well, that shipments are up, the track is being repaired so the 
service is so much better. And that was really a lifeblood that 
saved literally an estimated 1,700 jobs in a part of the State 
that really needed those jobs. So thank you.
    Mr. LaHood. Look, Senator, it is thanks to you. I mean, we 
would not have known about that if you had not pointed it out 
to us at one of these hearings that we had. Both of you 
senators have been great leaders on transportation.
    You are never going to hear a complaint from me or a 
criticism for either one of you for the work that you do, the 
partnership that we have had, in being in your States, and 
making sure that the transportation needs of your State are 
met, whatever they are. And we will continue to do that. It is 
very important.
    You all have been great, great friends and great partners, 
and we could not do the work we do without great leadership 
from both of you.
    Senator Collins. Thank you.
    Senator Murray. Thank you, Mr. Secretary. We really 
appreciate all your work in this, your passion, your energy, 
and we will continue to work with you throughout this year to 
put the best bill we can together. So thank you very much.
    Mr. LaHood. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. With that, I will remind my colleagues that 
the hearing record will be open for 1 additional week for 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
            air quality--union station and diesel emissions
    Question. After the Chicago Tribune reported Metra passengers and 
workers were exposed to excessively high levels of diesel soot, Metra 
took quick action to improve air quality in their cars by installing 
cabin air filters, switching to cleaner burning diesel fuel, and 
employing automatic idle shut-offs on many of their engines. Amtrak 
worked to identify additional solutions for the area around the train 
station itself. These actions had an immediate effect, reducing 
pollution emissions by as much as 75 percent.
    Are other transit agencies taking similar steps to assess and, if 
needed, improve the air quality at their stations and in their train 
cars?
    Answer. While transit agencies across the country work with local 
governments to meet air quality goals of the Clean Air Act administered 
by the Environmental Protection Agency (EPA), these goals are not 
specifically tied to individual transit stations or within transit 
vehicles. EPA regulates emissions from diesel-hauled rail transit 
vehicles and locomotives. The Federal Railroad Administration (FRA) 
regulates most aspects of intercity, regional, commuter, and light 
(interurban) rail transit systems operating on the General Railroad 
System. This would include diesel-hauled commuter and interurban 
systems. Additionally, while the EPA maintains exhaust emission 
standards for heavy-duty highway compression-ignition engines and urban 
buses, these standards are focused on tailpipe emissions and not 
focused on specific environments such as the inside of a transit 
vehicle or station.
    Federal agencies must ensure that their actions such as grants or 
approvals in nonattainment or maintenance areas conform to State air 
quality plans for achieving and maintaining air quality standards. Air 
quality factors are considered through the Department of Transportation 
(DOT) and metropolitan planning organization must comply with EPA's 
General Conformity or Transportation Conformity regulations, as 
applicable.
    EPA's Office of Transportation and Air Quality's (OTAQ) mission is 
to reconcile the transportation sector with the environment by 
advancing clean fuels and technology, and working to promote more 
livable communities. OTAQ is responsible for carrying out laws to 
control air pollution from motor vehicles, including their engines, and 
fuels. Mobile sources include: Cars and light trucks, large trucks and 
buses, farm and construction equipment, lawn and garden equipment, 
marine engines, aircraft, and locomotives. OTAQ's activities include: 
Characterizing emissions from mobile sources and related fuels; 
developing programs for their control, including assessment of the 
status of control technology and in-use vehicle emissions; carrying out 
a regulatory compliance program, in coordination with the EPA Office of 
Enforcement and Compliance Assurance, to ensure adherence of mobile 
sources to standards; fostering the development of State Motor Vehicle 
Emissions Inspection and Maintenance Programs; and implementing 
programs for the integration of clean-fueled vehicles into the market.
    Question. Have any studies been conducted to assess which transit 
agencies and stations are most in need of taking corrective steps to 
improve air quality for their passengers and transit workers?
    Answer. To our knowledge no specific study or synthesis report has 
been compiled specifically documenting transit agency stations in need 
of taking corrective steps to improve air quality specifically for 
transit passengers or transit employees. Within current operational 
environments, it is not unusual to detect a slight odor of diesel 
exhaust inside the one or two passenger cars directly behind the 
locomotive, inside diesel-hauled interurban trains, and on station 
platforms where such platforms are protected from breezes and other 
natural air circulation. This usually passes naturally once the vehicle 
is at speed or a few moments after the vehicle has departed the 
station. Operations in tunnels, covered stations and other below-grade 
configurations may exacerbate this issue.
    While the Federal Transit Administration (FTA) does sponsor 
research centered on reducing transit emissions through advanced and 
innovative technologies, there is no specific research targeting the 
passenger environment in vehicles and on station platforms. Further, 
there are currently no transit industry standards or FTA Requirements 
that address air quality specifically for passengers.
    Question. How can DOT help improve the air quality in diesel 
powered trains and around train stations?
    Answer. On a continuing basis, DOT, through its various modal 
administrations and programs, works with State and local communities to 
address air quality. FTA specifically has targeted its Transit 
Investments for Greenhouse Gas and Energy Reduction (TIGGER) program 
and its Clean Fuels program grant funds to transit agencies in both 
attainment and non-attainment areas to help them adopt new technologies 
that reduce vehicle idle time, overall energy usage, and harmful 
emissions. For example, using fiscal year 2010 TIGGER funding, FTA 
provided Metra, through the Illinois Department of Transportation, 
Federal funds to modify locomotives by implementing innovative 
automatic shut-down/start-up systems to reduce unnecessary idle time.
      faa airport privatization program--midway and other airports
    Question. The recent Federal Aviation Administration (FAA) 
reauthorization doubled the number of airports that can apply for the 
FAA Airport Privatization Pilot Program from 5 to 10. The privatization 
of such large publicly held assets naturally raises questions regarding 
responsible stewardship, particularly during times of economic 
uncertainty.
Midway Airport
    Midway Airport in Chicago is currently the only large-hub airport 
in this privatization program. How much total Federal funding has gone 
to build and maintain Midway Airport?
    Answer. Since 1982, Chicago's Midway Airport has received a total 
of $378,350,793 in Federal Airport Improvement Program (AIP) funds 
under the Airport and Airway Improvement Act of 1982.
    Question. How much Federal funding would the City of Chicago need 
to repay if it were successfully privatized under the program and FAA 
did not use their authority to exempt repayment of previously received 
Federal grants?
    Answer. Since 1982, Chicago's Midway Airport has received a total 
of $378,350,793 in Federal Airport Improvement Program funds under the 
Airport and Airway Improvement Act of 1982. If a private operator is 
selected for the airport, it may apply for an exemption under the FAA's 
Airport Privatization Pilot Program. At that time, FAA will evaluate 
the application for exemption.
    Question. What other large hub airports have expressed interest in 
the privatization program?
    Answer. To date, no other large hub airport has approached FAA with 
a formal request to participate in the program. From time to time, we 
do receive informal inquiries from airports.
Other Airports
    Question. Puerto Rico is currently soliciting bids to sell or lease 
Luis Munoz Marin International Airport. How much total Federal funding 
has gone to build and maintain this airport?
    Answer. Since 1982, Puerto Rico's San Juan Luis Munoz Marin 
International Airport has received a total of $180,353,147 in Federal 
Airport Improvement Program funds under the Airport and Airway 
Improvement Act of 1982.
    Question. How much Federal funding would Puerto Rico need to repay 
if it were successfully privatized under the program and FAA did not 
use their authority to exempt repayment of previously received Federal 
grants?
    Answer. Since 1982, Puerto Rico's San Juan Airport has received a 
total of $180,353,147 in Federal Airport Improvement Program funds 
under the Airport and Airway Improvement Act of 1982. If a private 
operator is selected for the airport, it may apply for an exemption 
under the FAA's Airport Privatization Pilot Program. At that time, FAA 
will evaluate the application for exemption.
    If an airport is required to repay Federal funding, what would DOT 
do with those funds?
    Answer. The existing privatization statute does not have any 
specific direction on how repayments are to be handled. In the 16 years 
that the airport privatization program has been in effect, no 
repayments have been required. Repayments would be handled on a case-
by-case basis.
    Question. Does DOT believe there are sufficient public interest 
protections in the current Airport Privatization Pilot Program law and 
regulations?
    Answer. The statute and regulation creating the FAA Airport 
Privatization Pilot Program (Program) specify how FAA evaluates the 
competencies of a proposed private operator. The FAA will not grant a 
part 139 airport operating certificate to a private operator that is 
unable to demonstrate the ability to meet or exceed existing airport 
operating requirements and standards. The FAA must also be satisfied, 
under the Program, with the private operator's plans to maintain, 
modernize and improve the airport, including its 5-year capital 
improvement plan. The Program also requires the FAA to find that the 
public sponsor undertook a process consistent with aeronautical users' 
interests, including consultation, limitations on fees, rights to 
object to the sponsor's planned use of proceeds, and impact on general 
aviation users, and that the private operator's plans with respect to 
aeronautical users are also consistent with their interests under the 
Program. Further, pursuant to the Program, the FAA must find that the 
privatization transaction will not abrogate any collective bargaining 
agreement that covers airport employees and that is in effect on the 
date of the transaction. In addition, the FAA must find that operations 
of the privatized airport will not be interrupted in the event of 
bankruptcy. Finally, all airports that have accepted Federal grants, 
regardless of public or private ownership, must meet the same grant 
assurance and safety requirements.
                     general highway privatization
    Question. A 2008 Government Accountability Office (GAO) report was 
critical of highway privatization deals. The report recommended several 
actions for Congress and the administration. Specifically, GAO 
recommended Congress require the Secretary of Transportation to develop 
and submit objective criteria for identifying national public interests 
in highway public-private partnerships.
    Does DOT currently have the legal authority to develop public 
interest criteria for highway public-private partnerships?
    What additional legal authority does DOT need to develop public 
interest criteria to ensure national public interests are protected in 
future highway public-private partnerships?
    What action is DOT taking now to ensure that national interests are 
considered in proposed highway public-private partnerships like the 
Ohio Turnpike?
    Answer. DOT does not have any statutory authority to require States 
to use any particular public interest criteria when determining whether 
and how to pursue a public-private partnership (P3) for highway 
infrastructure development. However, section 1534 of Public Law 112-141 
Moving Ahead for Progress in the 21st Century Act (MAP-21) directs the 
Department to develop and post information on best practices in P3s, 
including ``policies and techniques to ensure that the interests of the 
traveling public and State and local governments are protected'' in any 
P3 agreement. That section also allows DOT to provide technical 
assistance to a State, public transportation agency, or other public 
official ``in analyzing whether the use of a public-private partnership 
would provide value compared with traditional public delivery methods'' 
if requested to do so. DOT is currently working to implement this 
provision and could provide such technical assistance for the Ohio 
Turnpike if requested to do so.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                         emergency relief fund
    Question. Secretary LaHood, I want to thank you and your whole 
Department for all of the help and support you have provided to the 
State of Vermont in the wake of Hurricane Irene's devastation last 
August. I am amazed at how quickly the engineers and construction crews 
have rebuilt roads, bridges, and rail lines that were completely washed 
away just a few months ago. I'm especially grateful that we were able 
to get the Federal Highway Administration (FHWA) the additional 
Emergency Relief (ER) funding that the States need and the flexibility 
to grant waivers lifting the State cap and emergency-operations 
deadline. I really appreciate you granting of these waivers, which have 
been crucial to Vermont's rebuilding efforts.
    What is the current status of the Emergency Relief Fund? Do you 
anticipate needing more than the statutory $100 million in ER funding 
in fiscal year 2013 to deal with the backlog? How do you plan to cover 
potential shortfalls as Vermont and other States continue to request 
funding as they rebuild from past disasters?
    Answer. FHWA is authorized $100 million annually in Emergency 
Relief funds. In addition, the Consolidated and Further Continuing 
Appropriations Act, 2012 (Public Law 112-55) provided a one-time 
general fund appropriation of $1.662 billion. As of July 31, 2012, FHWA 
had a balance of $197,573,131.79 in ER funds from both the annual funds 
and the one-time funds. A large portion of this balance is the result 
of FHWA's more aggressive review of unobligated ER balances that States 
have been holding for work that is complete. Since January of this 
year, FHWA has recovered over $200,000,000 in unneeded ER funds for 
completed events that resided in State Department of Transportation 
(DOT) accounts. These funds can now be used to cover expenditures for 
other events.
    In addition, FHWA has $19,000,000 in Public Law 107-117 and Public 
Law 107-206 funds which were appropriated for damages associated with 
9/11. These funds are still needed to complete roadway infrastructure 
work when the reconstruction of the World Trade Center site is 
completed.
    FHWA also has a balance of $40,776,019.62 of Fiscal Year 1990 
Supplemental Appropriations (Public Law 101-130), which were 
appropriated for the Loma Prieta Earthquake and are no longer needed. 
Since the funds were specifically appropriated for the Loma Prieta 
Earthquake, they cannot be used for other events.
    In October 2012, FHWA anticipates asking field offices for their 
2013 obligation needs beyond the funding they have in hand.
    The available funding is sufficient to cover immediate needs. 
However, a major disaster in the late summer or fall of this year could 
impact our ability to respond to that event along with previous events.
    FHWA will continue to review unobligated balances and redistribute 
ER funding as necessary to maximize available ER resources.
                  restoring amtrak service to montreal
    Question. Secretary LaHood, Vermont used to have cross-border 
Amtrak service along the old Montrealer line between Washington, DC, 
and Montreal, Quebec. Passenger rail access to Montreal went away in 
1995, though, when St. Albans, Vermont, became the terminus for 
Amtrak's new Vermonter train.
    The State of Vermont is very interested in reestablishing Amtrak 
service to Montreal--and our Governor, Peter Shumlin, has made it one 
of his administration's top priorities.
    One of the major obstacles to cross-border travel today is 
passenger security screening, and I am pleased that easing the burdens 
of cross-border train travel is a goal of the recently announced Beyond 
the Border Initiative with Canada.
    With other trains already operating across the Northern Border in 
New York State and Washington State, I know it can be done. We just 
need help and support from Amtrak and U.S. Customs and Border 
Protection to make it happen.
    Will you work with me, the State of Vermont, the Department of 
Homeland Security, Amtrak, and the Canadians to explore reestablishing 
passenger train service to Montreal and finding reasonable solutions to 
the passenger screening issue?
    Answer. DOT stands ready to support the improvement of existing 
rail corridors and the development of new rail corridors where markets 
exist. The development of such services is driven by the State and 
regional plans for intercity passenger rail. Vermont's initial planning 
efforts to extend intercity passenger rail service through the State 
and on to Montreal has focused on the cross-border and customs 
requirements of the proposed service. Those issues are the subject of 
the United States-Canada Transportation Border Working Group (TBWG), 
which includes United States and Canadian transportation agencies as 
well as Federal Railroad Administration (FRA), the Department of 
Homeland Security, U.S. Customs and Border Protection, State and 
provincial governments, and other relevant agencies. The TBWG's 
passenger rail subcommittee, as well as other interested parties such 
as Amtrak, met on April 17-18, 2012, to address cross-border 
transportation issues including security and customs procedures that 
would affect service to Montreal. FRA will continue fully engaging with 
the TBWG, Congress, and other stakeholders to address these important 
issues.
    When Vermont's planning process advances to the next stage, we're 
prepared to provide technical assistance where necessary for their full 
Service Development Plan (SDP). The SDP process includes the analysis 
of a multitude of technical, financial, and policy considerations 
unique to the corridor and a completed SPD will be a critical next step 
to securing Federal funding, should additional funds become available, 
or identifying State and other funding resources to build the service.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                            pipeline safety
    Question. When will the Department of Transportation (DOT) begin 
verifying pressure testing records and requiring pressure testing of 
grandfathered pipelines that were never tested, as required by the 
recently enacted Pipeline Safety legislation?
    Answer. On April 13, 2012, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) published a notice (72 FR 22387) to 
inform the public of the agency's intention to modify its information 
collection requirements. This information collection modification, 
which will be reflected in gas transmission annual reports, will allow 
PHMSA to collect operator pressure test information. Further, the 
operator pressure test information will be used to support proposed 
rulemaking (ANPRM--August 25, 2011) (76 FR 5308) relating to removal of 
the grandfather clause.
    Question. About 50 percent of pipeline miles, including a majority 
of the oldest and highest risk lines, cannot be inspected using ``smart 
pigs'' due to the design of the pipelines themselves. What is your 
Department doing to develop a better smart pig, capable of inspecting 
more pipeline miles?
    Answer. Many pipelines cannot be ``smart-pigged'' using current in-
line inspection technology. Assessing the integrity of these pipelines 
requires new, innovative solutions and technologies. PHMSA is actively 
promoting increased development of smart pig technology through 
Research and Development (R&D) projects that are typically co-sponsored 
with industry; PHMSA is neither structured nor funded to independently 
develop smart pig equipment.
    On July 18 and 19, 2012, PHMSA hosted a public R&D forum to 
identify technology gaps in addressing the key technical challenges 
facing pipeline integrity assurance. The forum was to allow public, 
Government, and industry pipeline stakeholders to develop a consensus 
on the technical gaps and challenges for future government-led 
research. R&D forums like this one, allow the Government to learn what 
research projects are already underway by other stakeholders. At these 
forums participants discuss which projects deserve Government funding 
by analyzing and prioritizing the research project plans. This helps 
ensure PHMSA does not direct funding towards a project that is already 
being paid for or that is not beneficial to its mission. The national 
research agenda coming out of these types of events is aligned with the 
needs of the pipeline safety mission, makes use of the best available 
knowledge and expertise, and considers stakeholder perspectives.
    Question. The President's fiscal year 2013 budget request proposes 
a significant increase in pipeline inspectors. Please describe how 
these inspectors will likely increase safety.
    Answer. In fiscal year 2013 PHMSA requested additional inspection 
and enforcement staff to successfully implement the Pipeline Safety 
Reform initiative. Additional personnel will be used to help determine 
the safety and fitness for service of pipelines. PHMSA will continue to 
raise the bar on the safety of the Nation's pipeline infrastructure, 
making sure that companies comply with the critical safety rules that 
protect people and the environment from potential dangers.
    In 2011, Secretary LaHood issued a national Call to Action for all 
stakeholders to address the need for repair, rehabilitation, and 
replacement of high-risk pipeline facilities transporting hazardous 
liquids and flammable gases through American communities and 
environmentally sensitive areas. PHMSA is working with State regulatory 
communities, rate-setters, and the pipeline industry to establish 
remediation programs for these high-risk pipelines. Additional 
inspection and enforcement staff members are needed to assure these 
facilities practice good risk analysis and aggressively apply integrity 
management principles until these pipelines are repaired or replaced.
    Further, the Nation is experiencing a boom in development of 
unconventional energy resources, i.e., gas shales and oil plays 
throughout the country. Along with swift commercial development of 
these resources, pipelines are being constructed at an increasingly 
rapid pace to transport the oil and gas from the source to processing 
facilities. More inspectors are needed to assure these pipeline 
facilities are safely constructed and in accordance with applicable 
standards and regulatory requirements.
                    federal aviation administration
    Question. According to the Congressional Research Service, 36 
percent of Airport Improvement Program dollars go to airports without 
commercial service. However, more than 99 percent of travelers fly 
commercial. Do you think this is the right balance of funding 
priorities in this time of shrinking budgets?
    Would you support a higher percentage of Airport Improvement 
discretionary funding going to improving the safety and facilities of 
airports that most Americans use?
    Answer. The goal of the Airport Improvement Program (AIP) is to 
maintain and improve the Nation's airport system. AIP funds are awarded 
(based on national priorities) to different-sized airports so they can 
address critical airport safety, capacity, and security projects.
    General Aviation airports provide the national airport system with 
specialized services like emergency medical services, aerial 
firefighting, and law enforcement and border control. However, they do 
not have access to airport development funding such as passenger 
facilities charges and the bonds market that are otherwise available to 
airports with commercial service.
    The FAA-issued study, General Aviation Airports: A National Asset 
(May 2012), provides additional information on the Nation's general 
aviation airports. A copy of the study can be accessed at http://
www.faa.gov/airports/planning_capacity/ga_study/.
                       los angeles subway system
    Question. The people of Los Angeles want rapid construction of 
their subway system, and no one that has experienced LA traffic can 
blame them. What can and should the Federal Transit Administration and 
Los Angeles do to get the two subway projects seeking full funding 
grant agreements in fiscal year 2013 prepared to execute that 
agreement?
    Answer. FTA has been very supportive of the two projects, including 
recommending the Regional Connector project for $31 million and the 
Westside Subway Extension project for $50 million in the President's 
fiscal year 2013 budget to help advance the projects through 
preliminary engineering and final design. Additionally, in response to 
their transmittal of a Letter of Interest, the Department invited the 
Los Angeles County Metropolitan Transportation Authority (LACMTA) to 
submit an application for a Transportation Infrastructure Finance and 
Innovation Act (TIFIA) loan for the Westside Subway Extension project.
    Before the two projects will be ready for Full Funding Grant 
Agreements (FFGAs), they must complete engineering and design, obtain 
firm funding commitments for all non-New Starts funding sources, and 
obtain a satisfactory rating from FTA under the statutory evaluation 
criteria. Currently the financial plan submitted by LACMTA assumes an 
extension of the Measure R half-cent sales tax that will be placed on 
the upcoming November election ballot and approved by voters. This vote 
would need to occur and be successful, or the financial plan would need 
to be revised to demonstrate other available and committed resources, 
before FTA could move forward with the FFGAs.
    Question. Last year DOT invited the Westside Subway to the Sea to 
file its final TIFIA loan application, which should lead to loan term 
negotiations. What is the status of this loan?
    Answer. The Westside Subway to the Sea project is a major transit 
investment that is expected to improve mobility and connectivity in the 
city of Los Angeles. Recognizing these and other important benefits, 
DOT invited the project sponsor to apply for TIFIA financing in 
response to the fiscal year 2011 TIFIA Notice of Funding Availability 
(NOFA). As with other major projects, there are a number of milestones 
that the project sponsor, the Los Angeles County Metropolitan 
Transportation Authority (LACMTA), needs to reach in order to move 
toward closure on a TIFIA financing. The environmental review of the 
project was finalized with the record of decision date of August 9, 
2012. In addition, the project is advancing through the Federal Transit 
Administration (FTA) New Starts program with the eventual aim of 
financing the project in part through a full funding grant agreement. 
It is our understanding that with the progress that has been made in 
these areas, LACMTA plans to submit a TIFIA loan application for the 
project in the fall. When DOT receives the loan application the TIFIA 
office will commence its review of the application including a 
comprehensive credit evaluation of the project.
    Question. ``America Fast Forward'' is a proposal to build transit 
more rapidly using subsidized bonding and low interest lending. The 
Transportation-HUD Subcommittee has increased the size of the TIFIA and 
Transportation Investment Generating Economic Recovery (TIGER) TIFIA 
lending programs in recent years to grant your Department more than 
three times the lending authority it had just a few years ago. Do you 
agree that expanding the TIFIA program has been an important step in 
implementing America Fast Forward?
    Answer. In recent years national demand for TIFIA credit assistance 
has been overwhelming. The increased funding for TIFIA provided in 
Moving Ahead for Progress in the 21st Century Act (MAP-21) will enable 
the Department to provide credit assistance to significantly more 
projects.
                            high-speed rail
    Question. Will you direct someone within your office to serve as 
the full-time point person, trouble shooter, and leader of the 
Department's high-speed rail effort full-time?
    Answer. FRA has organized its grant project development and 
delivery office into geographic teams with a leader of each of its nine 
regions spanning the United States. This regional lead manages 
oversight efforts for projects and acts as single, centralized point of 
contact for State officials and other stakeholders. In turn, each 
regional lead coordinates an FRA team composed of project managers, 
engineers, environmental specialists, grant managers, attorneys, and 
other experts. Together these regional teams used a risk-based approach 
to track project progress, provide grantee technical assistance, and 
conduct grant monitoring and oversight efforts.
    For the California HSR project in particular, FRA has recently 
hired a Senior Executive Service-level Project Manager, who has been 
designated as DOT's senior point-person on high-speed rail issues to 
oversee the California High-Speed Rail project on a full-time basis.
                          fuel economy labels
    Question. The fiscal year 2012 Transportation-HUD Senate Report 
directed the Department of Transportation to develop fuel economy 
labels for medium-duty vans and pickup trucks like the Ford F-250 
within 3 model years. Small businesses--often in the construction 
business--buy many of these types of vehicle. But the business owner 
has no way to calculate the fuel costs of various models until this 
sticker is added to these vehicles. What is the National Highway 
Traffic Safety Administration doing to comply with this subcommittee's 
direction that these labels be required within 3 years?
    Answer. NHTSA is currently focused on completing the final 
rulemaking for the Corporate Average Fuel Economy (CAFE) standards for 
model year 2017-2025 vehicles. On July 29, 2011, President Obama 
announced plans for these rules and charged NHTSA and the Environmental 
Protection Agency with developing these rules. The two agencies issued 
a proposal last November, have held numerous public hearings around the 
country, and are working to complete the rulemaking. NHTSA is devoting 
all focus and energy to finalize this presidential priority rulemaking 
as expeditiously as possible. After the conclusion of this important 
rulemaking effort, the agency will determine the timing and resources 
needed to address the committee's concerns about fuel economy labels 
for medium trucks and pick-ups.
                              truck safety
    Question. A few years ago I wrote to your Department supporting 
mandatory use of electronic onboard recorders to enforce hours of 
service limits on truck drivers. Some of my constituents have been 
killed by tired truck drivers who were falsifying paper records. I 
learned there is almost no enforcement to prevent this kind of hours of 
service violation, and it is believed to be widespread.
    At the time, the Department of Transportation said that the 
electronic onboard recorders were too expensive. I understand that the 
Department has proposed a draft regulation to require these recorders 
in some cases, but costs remains an issue.
    My staff informs me that there is now an iPhone application that 
can perform all of the key functions of an electronic onboard recorder 
at no substantial cost.
    What is DOT doing to consider this technology in its rulemaking?
    Answer. FMCSA is committed to the development of electronic logging 
device technical specifications focused on hours of service compliance, 
and fulfilling all of the requirements included in MAP-21. The Agency 
does not believe the technical specifications it is currently 
considering would preclude the use of low-cost innovative approaches to 
electronic logging, such as smart phones, provided such devices have a 
means of meeting the MAP-21 requirement concerning electronic 
communications between the device and the commercial motor vehicle to 
ensure accurate date, time, and location information the beginning and 
end of driving time periods, i.e., integral synchronization of the 
device with the commercial motor vehicle.
    FMCSA acknowledges that an electronic logging device mandate would 
impose nearly $2 billion in costs on the commercial motor vehicle (CMV) 
industry. This estimate is based on the Agency's Regulatory Impact 
Analysis (RIA) for the 2011 notice of proposed rulemaking (NPRM) in 
which the Agency estimated initial total costs of $1.984 billion per 
year.
    While the estimated costs are economically significant, the 
electronic logging device rulemaking would be considered cost-
beneficial. The Agency estimated total benefits of $2.699 billion 
resulting in an annual net benefit of $715 million. A significant 
portion of these benefits would come from $1.965 billion in annual 
paperwork reduction--a savings of $688 per driver each year--due to 
drivers no longer completing and submitting logbooks. Therefore, FMCSA 
continues to believe that a mandate for electronic logging devices, 
potentially including smart phones with an hours-of-service 
application, would be cost-beneficial.
    The Agency is currently preparing a supplemental NPRM that will re-
examine the estimated costs and benefits (both paperwork savings and 
safety) associated with an electronic logging device mandate for 
carriers using handwritten records of duty status (RODS), and all of 
the MAP-21 requirements concerning this rulemaking.
                                 ______
                                 
           Question Submitted by Senator Frank R. Lautenberg
    Question. The Obama administration has yet to release a 
comprehensive National Rail Plan as required by my 2008 Amtrak law. 
This Amtrak law required the Department of Transportation (DOT) to 
develop a National Rail Plan in order to ensure that the administration 
was focused on the long-term needs of the intercity passenger rail 
system, and to make sure that Amtrak and States can successfully meet 
the public's increasing demand for passenger rail. The Plan should also 
ensure a cohesive, efficient, and optimized rail system for the 
movement of goods and people.
    Yesterday, the Senate passed the surface transportation 
reauthorization, which further detailed the need for this Plan and 
clarified steps that the Department of Transportation should take to 
complete it. Additionally, the DOT Inspector General's office recently 
released a report and noted that DOT does not have an expected 
completion date for the entire plan.
    When will we see a final National Rail Plan from DOT?
    Answer. The Federal Railroad Administration (FRA) published a 
Preliminary National Rail Plan (NRP) in October 2009 following the 
direction of Congress, and a subsequent update of the NRP was made in 
the September 2010 Progress Report. These documents--combined with the 
policies and funding levels described in the administration's fiscal 
year 2013 budget proposal and 6-year investment strategy--articulate 
the future of intercity passenger rail for America.
    In October 2011, FRA submitted to Congress a Public Investment and 
Business Case for four major corridor programs that were funded through 
fiscal year 2010 appropriations (Los Angeles-San Francisco, Chicago-
Detroit, Chicago-St Louis, and Chicago-Iowa City). Consistent with 
requirements established in the fiscal year 2010 appropriations, these 
documents summarized the need for these investments, quantitatively and 
qualitatively assessed benefits and costs, and reviewed implementation 
and operating plans.
    Since fiscal year 2009, State and Federal rail planning has 
progressed significantly as well as their experience with new rail 
development. The need to revise and update the NRP will be incorporated 
as the program matures. FRA continues to undertake a number of 
interrelated planning and analysis efforts--all of which include 
substantial engagement with our State partners and other stakeholders--
that will result in further iterations of the NRP and related 
documents.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. The continued delay in issuing the final Notice of 
Proposed Rule Making (NPRM) for part 145 repair stations has created a 
growing problem for industry and a continued frustration for security 
regulatory agencies. Recognizing that much of the remaining work is 
dependent on the Transportation Security Administration (TSA), can you 
provide a sense of when the final NPRM will be issued? What will be the 
process for new certifications once the final NPRM is issued?
    Answer. The public comment period for TSA's Proposed Aircraft 
Repair Station Security Rule closed February 19, 2010. The rules are 
intended to improve the security of maintenance and repair work 
conducted on aircraft and aircraft components at domestic and foreign 
repair stations certificated by the Federal Aviation Administration 
(FAA) (14 CFR part 145), thereby reducing the likelihood of a terrorist 
attack on civil aviation via a certified repair station. The NPRM 
proposed that repair stations (both foreign and domestic) would be 
required to adopt and carry out a standard security program developed 
by TSA and comply with TSA-issued security directives.
    According to the Federal Register (July 7, 2011), the proposed 
rules were then in the final rulemaking stage. No additional 
information is available at this time as to when a final rule will be 
published.
    Absent a final rule, current law prohibits FAA from certificating 
new foreign repair stations.
    Upon the publication of the final rule, FAA intends to prioritize 
applications using the agency's Certification Services Oversight 
Process (CSOP).
    Question. The Government Accountability Office (GAO) issued a 
report in 2009 with 47 recommendations addressing internal control 
weaknesses at the U.S. Merchant Marine Academy (USMMA). What progress 
has the U.S. Maritime Administration (MARAD) made in addressing GAO's 
recommendations to improve the Academy's internal controls?
    Answer. GAO completed a follow-up audit of the USMMA, and issued 
report GAO-12-369, in July 2012. The report confirms closure of 32 
recommendations, and acknowledged agency actions and progress 
addressing all of the recommendations. The report identified no new 
issues in the areas of concern identified in the 2009 audit report. GAO 
reports ``the Academy and MARAD had made substantial progress in 
addressing weaknesses related to specific control activities by 
successfully implementing 32 of the 46 control deficiency-related 
recommendations identified in our 2009 report. For example, the 
corrective actions taken to improve controls were sufficient for us to 
conclude that all recommendations related to training vessel use, 
personal service acquisitions, accountability for Academy reserves, and 
NAFI camps and clinics using Academy facilities were successfully 
implemented.'' Additionally, the July 2012 GAO report identified one 
new recommendation for the USMMA concerning capital improvement 
management.
    The report indicated a need for additional documentation or action 
for 14 remaining recommendations, and identified one recommendation as 
overarching, for examination after all other recommendations have been 
addressed and closed. In those areas where GAO subsequently determined 
that additional detail would need to be taken to fully address 
recommended actions, MARAD is working to complete the actions by 
December 31, 2012.
    Question. While the FAA pursues new regulations overseeing the 
public and for-private use of unmanned aircraft, can you assure the 
modeling community that FAA will not promulgate new regulations for 
recreational use of model aircraft unless consistent with the language 
and intent of the Special Rule?
    Answer. FAA can assure that any regulatory actions involving 
modelers will be consistent with the FAA Reauthorization and 
Modernization Act of 2012 regarding model aircraft.
    Question. FMCSA's Compliance Safety Accountability (CSA) program 
counts crashes against motor carriers and truck drivers, including 
crashes they did not cause. For example, a wrong-way crash where a car 
is going the wrong direction on an interstate and runs into a truck 
could be counted against the truck by CSA. To better target those 
carriers and drivers accountable for crashes, I understand DOT is 
planning to screen accident reports for crashes that were unavoidable. 
I think that is extremely important; otherwise CSA, is unfairly 
labeling companies and their drivers guilty unless proven innocent. 
What is DOT's timetable for improving the CSA crash data and fully 
implementing a Crash Accountability program? Will you commit to making 
this change a priority?
    Answer. The Federal Motor Carrier Safety Administration (FMCSA) 
agrees that better understanding a carrier's role in a crash is 
important. After discussions with stakeholders and taking an initial 
look at the use of police accident reports (PARs), FMCSA concluded that 
more work was necessary to develop a program that is fair, uniform and 
administratively feasible.
    On July 23, 2012, FMCSA began conducting a study to research the 
safety benefits of adjusting crash weights in the Agency's Safety 
Measurement System (SMS) based on the carrier's role in the crash 
(i.e., preventability). FMCSA is considering modifying the Crash 
Indicator to weight crashes not only based on severity and timeliness 
but also on the role of the motor carrier in the crash. FMCSA designed 
the SMS to be continually improved as better data, information, and 
analysis become available. This research study is expected to conclude 
in the summer of 2013. Upon completion of the research study, FMCSA 
will publicize the results and announce next steps. FMCSA's Crash 
Weighting Research Plan can be found at 
http://csa.fmcsa.dot.gov/Documents/CrashWeightingResearchPlan_7-
2012.pdf.
    SMS is the Agency's system for identifying high-risk carriers, and 
it scores any carrier that meets our data sufficiency requirements. 
Currently, SMS uses all crashes within the Crash Indicator regardless 
of the role of the motor carrier in those crashes. This safety 
measurement area has proven to be one of the better predictors of 
future crash risk, irrespective of the cause of the crash. Recent 
analysis has demonstrated that SMS is an effective tool in identifying 
those carriers most likely to have crashes. FMCSA's data system 
identifies 525,000 active motor carriers; 200,000 of those carriers 
have sufficient data to be assessed in at least one of our SMS Behavior 
Analysis and Safety Improvement Categories (BASIC). These 200,000 
carriers have been involved in 92 percent of crashes reported to FMCSA.
    Question. I understand DOT's analysis of the recently published 
Hours of Service rule demonstrates the estimated safety benefits of the 
changes to the rule do not outweigh the costs. In this difficult 
economy, it is important the Federal Government adequately consider the 
costs of regulatory changes. I am concerned the elements of the final 
rule may violate this important cost-benefit principle. I understand 
the American Trucking Association recently filed a petition with the 
U.S. Circuit Court of Appeals for the District of Columbia asking the 
court to review the new rule. How does the administration plan to 
address stakeholder concerns like those raised in the ATA's court 
petition?
    Answer. In 2010 alone, large truck crashes resulted in 3,675 
fatalities. In these large truck crashes, fatigue is a leading factor. 
In 2009, large truck crashes cost nearly $20 billion in societal costs, 
including medical, insurance, infrastructure damage, lost wages, and 
productivity. These far-reaching impacts on the economy and taxpayers 
point to the need for policies that reduce the causes of truck 
accidents, including driver fatigue, in order to prevent needless 
tragedies on our highways.
    FMCSA's 2011 final rule concerning hours of service contains 
estimated costs of $470 million per year, which are less than half the 
costs in FMCSA's preliminary plan published in the notice of proposed 
rulemaking, which were estimated to be $1 billion. This new safety rule 
will result in many public safety benefits, as well as benefits due to 
improved driver health. The final rule provides $280 million in annual 
economic benefits from reducing crashes and $350 million in economic 
benefits from improved driver health, totaling $630 million in 
benefits. Based on FMCSA's regulatory impact analysis, the economic 
benefits significantly exceed the $470 million annual costs of the 
rule.
    Question. FAA has recently undertaken successful service-based 
programs including the surveillance broadcast services (SBS) for 
nationwide ADS-B deployment. In these times when budget constraints are 
the norm not the exception, what is FAA's view of expanding its use of 
fee for service contracts like SBS in areas including communication, 
navigation, surveillance, and automation?
    Answer. Automatic Dependent Surveillance-Broadcast (ADS-B) services 
are procured by the FAA in the same way that power and 
telecommunications services are secured. The FAA owns the surveillance 
and flight data transmitted and received between aircraft and the ATC 
ground stations, but does not own the actual hardware and other 
components necessary to provide the services.
    The FAA will consider performance-based service contracts as a 
potential method of procuring communication, navigation, surveillance, 
automation, and other services. The FAA's Acquisition Management System 
encourages the use of this method of contracting. As with all 
procurements, however, the acquisition strategy will be evaluated to 
determine the most cost-effective approach and the approach most likely 
to result in the best value for the agency and taxpayer. Should another 
major procurement be done utilizing the service-based approach, the 
agency will utilize lessons learned from the ADS-B and other 
performance based service acquisitions.

                         CONCLUSION OF HEARINGS

    Senator Murray. And with that, this subcommittee is 
recessed until further notice.
    [Whereupon, at 10:14 a.m., Thursday, March 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
